-   September 16, 2005-




Financial Management
Review of the U.S. Army Corps of
Engineers, Civil Works, Balance
Sheet Reporting and Financial
Statement Compilation
(D-2005- 108)




                    Department of Defense
                   Office of Inspector General


       A Regular Statement of Account of the Receipts and Expenditures of all public
       Money shall be published from time to time.
                                                                 Article I,Section 9
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.0sd.mi1/audit/1-eports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.
  Suggestions for Future Audits
  To suggest ideas for or to request hture audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:
                                  ODIG-AUD (ATTN: AFTS Audit Suggestions)
                                  Inspector General of the Department of Defense
                                        400 Army Navy Drive (Room 801)
                                            Arlington, VA 22202-4704

 D E P A R T M E N T OF JEFENSE




                                                                    .   "




Acronyms
CEEMIS                             Corps of Engineers Enterprise Management Information System
CEFMS                              Corps of Engineers Financial Management System
CP                                 Construction-In-Progress
COEMIS                             Corps of Engineers Management Information System
DDRS-AFS                           Defense Departmental Reporting System - Automated Financial
                                      Statements
GAO                                Government Accountability Office
JV                                 Journal Voucher
MOA                                Memorandum of Agreement
OIG                                Office of the Inspector General
PP&E                               Property, Plant, & Equipment
USACE                              U.S. Army Corps of Engineers
                                         /+
                             INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




MEMORANDUM FOR COMMANDER AND CHIEF OF ENGINEERS, U.S. ARMY
                 CORPS OF ENGINEERS
                                                                     September 16,2005




SUBJECT: Report on Review of the U.S. Army Corps of Engineers, Civil Works,
         Balance Sheet Reporting and Financial Statement Compilation
         (Report No. D-2005- 108)

       We are providing this report for information and use. We performed the review in
response to a request fiom the U.S. Army Corps of Engineers. We considered
management comments on a draft of this report in preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and Ieft no unresolved issues. Therefore, no additional comments are
required.




                                                    -
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Lorin T. Pfeil at (703) 325-5568 or Mr. Henry Y. Adu at (703) 325-6008. See
Appendix H for the report distribution. The team members are listed inside the back
cover.
                               By direction of the Deputy Inspector General for Auditing:



                                       Paul . Granetto, CPA
                                     Assistant inspector General
                                 Defense Financial Auditing Services
                Department of Defense Office of Inspector General
Report No. D-2005-108                                                   September 16,2005
   (Project No.D2004-DOOOFE-0244.000)

                 Review of the U.S. Army Corps of Engineers,
                  Civil Works, Balance Sheet Reporting and
                       Financial Statement Compilation

                                 Executive Summary

Who Should Read This Report and Why? U.S. Army Corps of Engineers (USACE),
Civil Works, management and personnel responsible for financial reporting should read
this report. It discusses USACE, Civil Works, efforts to overcome impediments to
reliable financial reporting.
Background. Since FY 2002, the DoD Office of Inspector General has conducted audits
and assessments of the USACE, Civil Works, Balance Sheet reporting and financial
statement compilation processes and has issued reports and memorandums identifying
numerous deficiencies. On November 19,2004, the USACE Chief of Staff asserted that
corrective actions to remediate previously identified deficiencies had been implemented.
The DoD Office of Inspector General was requested to review selected Balance Sheet line
items and the financial statement compilation process to determine if the previously
identified deficiencies had been corrected. The scope of the review was outlined in an
engagement memorandum signed by USACE management and the DoD Office of
Inspector General.
Results. USACE implemented numerous corrective actions to remediate previously
identified deficiencies on the Civil Works selected Balance Sheet line items and with the
financial statement compilation process. However, deficiencies continue to exist and
Balance Sheet line items continue to be misstated. We found deficiencies in all six of the
balance sheet line items we reviewed. Specifically, 309 of 853 sample items used to test
for deficiencies failed our review. For the largest Balance Sheet line item reviewed,
General Property, Plant and Equipment, we identified errors and unresolved audit issues
totaling $2.3 billion. In addition, we identified significant deficiencies with the financial
statement compilation process including unsupported adjustments, undocumented
differences in trial balance data, and inaccurate general ledger correlations. As a result of
the continued deficiencies, we do not have reasonable assurance that the USACE, Civil
Works, FY 2005 Balance Sheet is ready for an audit that would result in a favorable
opinion. USACE needs to establish a comprehensive implementation program to ensure
that the corrective actions to remediate previously identified deficiencies with the Civil
Works Balance Sheet and financial statement compilation process are fully and
consistently executed at all USACE activities. The program should include guidance for
validation of corrective actions. In addition, the program should include a methodology
for USACE headquarters to monitor the Balance Sheet reporting and financial statement
compilation processes to ensure continued accuracy. (See the Finding section of the
report for the detailed recommendations.)
Management Comments. The Commander of U.S. Army Corps of Engineers
concurred with the finding and recommendation and stated that USACE has developed a
"Get Well Plan" to achieve a clean audit opinion on USACE, Civil Works, FY 2006
Balance Sheet. See the Finding section for a discussion of management comments and
the Management Comments section of the report for a complete text of the comments.
Management Actions. During the review, USACE headquarters held a workshop with
representatives from DoD Office of the Inspector General and USACE field activities.
The workshop provided guidance and discussed the responsibilities of the field activities
personnel under the "Get Well Plan."
Table of Contents

Executive Summary                                                           1



Background                                                                  1


Objectives                                                                  3

Finding
     U.S. Army Corps of Engineers Implementation of Corrective Actions to
        Remediate Previously Identified Deficiencies                        4


Appendixes
     A.   Scope and Methodology
     B.   Prior Coverage
     C.   Prior Deficiencies
     D.   Memorandum of Agreement
     E.   Assertion Letter
     F.   Engagement Memorandum
     G.   Sites Reviewed
     H.   Report Distribution

Management Comments
     U.S. Army Corps of Engineers
Background
    The DoD Office of Inspector General (OIG) performed this review of selected
    Balance Sheet line items and the financial statement compilation process at the
    request of USACE. We were not engaged to perform and did not perform an
    audit of the Balance Sheet items with the objective of expressing an opinion.
    Accordingly, we do not express such opinion. The determination of this review
    was based on the informational needs of the DoD officials who will use this report
    as part of the basis for deciding whether or not USACE, Civil Works, will be
    ready for an audit of its FY 2005 Consolidated Balance Sheet. See Appendix A
    for a discussion of the review scope and methodology.
    USACE Mission and Organization. The USACE Civil Works mission is to
    manage water resource development as related to flood and coastal storm damage
    reduction, navigation, hydropower, recreation, water supply, regulation of
    obstructions in navigable waters and protection of the aquatic environment,
    environmental restoration and stewardship, and emergency response. USACE
    headquarters creates policy and plans future direction of all the other USACE
    activities. USACE is organized geographically into eight divisions and
    41 subordinate districts that oversee project offices throughout the world.
    Additional USACE activities include a finance center, research and development
    laboratories, and other support activities.
    USACE Financial Reporting. USACE, Civil Works, presents its total Assets,
    Liabilities, and Net Position on the Balance Sheet financial statement. USACE,
    Civil Works, uses three principal systems to prepare its financial statements. The
    Corps of Engineers Enterprise Financial Management System (CEFMS) is the
    official accounting and financial management system for USACE and is an
    interactive, on-line, and menu-driven database. During FY 1998, USACE
    completed the deployment of CEFMS to all of its divisions, districts, centers,
    laboratories, and field offices. CEFMS replaced the Corps of Engineers
    Management Information System (COEMIS). Consolidated financial data is
    reported from CEFMS to the Corps of Engineers Management Information
    System (CEEMIS). CEEMIS was developed by USACE to consolidate
    accounting data and to prepare reports. Financial data is compiled and transferred
    by general ledger account to the Defense Departmental Reporting System -
    Automated Financial Statements (DDRS-AFS). The DDRS-AFS is a DoD system
    that produces the USACE Financial Statements.
    Prior Deficiencies. Since FY 2002, DoD OIG has conducted audits and
    assessments of USACE, Civil Works, Balance Sheet reporting and financial
    statement compilation processes and identified numerous deficiencies. The
    findings and recommendations related to these deficiencies have been published
    and communicated to USACE in numerous reports and memorandums. See
    Appendix B for prior audit coverage and Appendix C for a list of prior
    deficiencies.
    Memorandum of Agreement (MOA). We identified the lack of documentation
    to substantiate the book cost for a significant portion of USACE, Civil Works,
    real property and the administrative costs associated with land as major audit
impediments in determining whether USACE, Civil Works, General Property,
Plant, and Equipment (PP&E) is fairly stated. DoD OIG and USACE executed a
MOA for developing alternate methods to estimate and support acquisition costs
and capitalized improvements for real and personal property assets with remaining
useful lives and administrative costs associated with land. In addition, the MOA
described procedures to ensure that the Construction-In-Progress (CIP) costs that
will be assigned to future assets are supported. The MOA represents the official
baseline for supporting the book cost of individual USACE, Civil Works, General
PP&E if properly executed. (See Appendix D for the Memorandum of
Agreement.)
USACE Information Papers. USACE took action to correct deficiencies by
issuing revised financial reporting policy in the form of 12 information papers
(see Table 1). The information papers described the deficiencies identified by the
Government Accountability Office (GAO), DoD OIG, and the U.S. Army Audit
Agency and provided the necessary corrective actions to be implemented by
USACE field activities. Most of the information papers required the responsible
internal review office to validate completion of the corrective actions. However,
the information papers did not provide any details on the scope and methodology
to be used in conducting the validations. If properly implemented, the instructions
outlined in the information papers should correct the significant deficiencies
identified with the Balance Sheet line items and the financial statement
compilation process.

                      Table 1. USACE Information Papers
 Information
    Paper      Subiect
       1       Asset Cost Table Reconciliation
       2       Construction-In-Progress
       3       Abnormal General Ledger Balances
       4       Project Relocation Costs
       5       Accounts Receivable
       6       Accumulated Depreciation
       7       System Security Issues
       8       Accounts Payable
       9       Equipment
      10       Buildings and Other Structures
      11       Land
      12       CEFMS General Ledger Correlations and Accounting Adjustments


The preliminary results of this review were briefed to USACE Headquarters
personnel on March 8,2005. In response, USACE held a workshop in May 2005
with representatives from DoD OIG and USACE headquarters and field activities.
The workshop provided guidance on implementing the corrective actions set forth
in the USACE information papers.
USACE Management Assertions. On November 19,2004, USACE requested
that DoD OIG review the implemented corrective actions to remediate previously
    identified deficiencies related to the selected balance sheet line items. USACE
    asserted that the corrective actions had been implemented and that USACE was
    ready for DoD OIG to perform a review. USACE asserted as of
    October 3 1,2004, that the following actions had been completed.
               Information was presented in conformity with generally accepted
               accounting principles.
               Internal controls were established and maintained to provide
               reasonable assurances that internal control objectives are met.
               All material transactions in the accounting records underlying the
               Balance Sheet were properly recorded.
               All deficiencies related to the following Balance Sheet line items were
               corrected: Accounts Payable; Accounts Receivable; General PP&E
               (including Land; Buildings, and Other Structures; CIP; and
               Equipment), and Depreciation.
               Deficiencies related to the financial statements compilation process
               were corrected.
    USACE asserted that the corrective actions adequately satisfied all Chief
    Financial Officer Act issues identified in previous USACE information papers and
    DoD OIG audit reports and memorandums. See Appendix E for the Management
    Assertion Memorandum.
    Engagement Memorandum. On December 14,2004, DoD OIG and USACE
    signed an engagement memorandum defining the purpose of the review. The
    engagement memorandum stated that previous audits of USACE, Civil Works,
    identified and documented deficiencies in the reporting of financial information
    for some USACE, Civil Works, Balance Sheet line items. The engagement
    memorandum communicated that the responsibilities of the DoD OIG included
    the performance of a review to express a conclusion about USACE assertions that
    corrective actions have been completed to eliminate the deficiencies. See
    Appendix F for the engagement memorandum.


Objectives
    Our overall objective was to determine whether USACE, Civil Works, had
    implemented corrective actions to remediate the previously identified deficiencies
    related to selected Balance Sheet line items. In addition, we reviewed the
    financial statement compilation process as required by the engagement
    memorandum. See Appendix A for a discussion of the scope and methodology
    and Appendix B for prior coverage related to the objective.
           USACE Implementation of Corrective
           Actions to Remediate Previously
           Identified Deficiencies
           USACE implemented numerous corrective actions to remediate previously
           identified deficiencies with selected USACE, Civil Works, Balance Sheet
           line items and with the financial statement compilation process. However,
           deficiencies continued to exist, and the balance sheet line items continued
           to be misstated. We found deficiencies in all six of the balance sheet line
           items we reviewed. Specifically, 309 of 853 sample items used to test for
           deficiencies failed our review. For the largest Balance Sheet line item
           reviewed, General PP&E, we identified errors and unresolved audit issues
           totaling $2.3 billion. In addition, we identified significant deficiencies
           with the financial statement compilation process including unsupported
           adjustments, undocumented differences in trial balance data, and
           inaccurate general ledger correlations. The deficiencies continued to exist
           because USACE did not establish a comprehensive corrective action
           program to ensure that the instructions provided in its information papers
           were fully and consistently executed at all USACE activities. As a result
           of the continued deficiencies, we do not have reasonable assurance that the
           USACE, Civil Works, FY 2005 Balance Sheet is ready for an audit that
           would result in a favorable opinion.


Implementation of Corrective Actions
    USACE did not fully implement corrective actions to remediate previously
    identified deficiencies related to selected Balance Sheet line items. Specifically,
    309 of 853 sample items used to test for deficiencies failed our review. For the
    largest Balance Sheet line item reviewed, General PP&E, we identified errors and
    unresolved audit issues totaling $2.3 billion.
    We reviewed the following USACE, Civil Works, Balance Sheet line items:
    Accounts Receivable, General PP&E (including Land; Buildings, Structures and
    Facilities; CIP; and Equipment) and Accounts Payable. The review was based on
    USACE's assertion that it had completed the necessary actions to correct all
    deficiencies identified in the Balance Sheet as of October 3 1,2004. The audit
    teams considered the results of prior audits, date of last site visit, status of prior
    deficiencies, and availability and composition of universe data in determining the
    amount of coverage to provide for each line item. A combination of nonstatistical
    judgmental and simple random sampling techniques was used to select the sample
    items for review. The sampling methodology used for each line item is provided
     in Appendix A. The number of sample items reviewed for each Balance Sheet
     line item and the number of items found to have deficiencies are summarized in
    Table 2. The significant dollar value errors identified with General PP&E assets
    are summarized in Table 3. Details on the review are provided in separate
    paragraphs for each line item.
                             Table 2. Overall Sample Item Results
                                                         No.                     No. Items With
    Balance Sheet Line Item                           Sample Items                Deficiencies
    Accounts Receivable                                  120                            10
    Land                                                 191                            75
    Buildings, Structures and Facilities                 120                            79l
    CIP                                                  120                            62
    Equipment                                            160                            46
    Accounts Payable                                        142                        -37
     Totals                                                 853                        309
1    These items contained one or more deficiencies. which resulted in a total of 148 deficiencies.




                      Table 3. Significant General PP&E Deficiencies
                                       ($ in Millions)

    Balance Sheet                  Sample            Otherl         Unresolved             Total
    Line Item                      Errors           Errors          Audit Issues        Deficiencies
    Land                            $482.8          $ 2.9             $ 0.0              $ 485.7
    Buildings, Structures
    and Facilities                   105.9             0.0                 0.0               105.9
    CIP                               86.2           815.6               835.3             1,737.1
    Equipment                          0.5             0.0                 0.0                 0.5
     Totals                         $675.4          $818.5              $835.3            $2,329.2
     I
       Other errors include rnisclassified reservoir costs, non-Federal CIP, CIP errors identified
     during prior reviews, other completed CIP projects, CIP assets with negative balances, and
     variances between CIP general and subsidiary ledgers.



Accounts Receivable. USACE has taken action to ensure that receivables were
recorded properly and the records maintained until the amounts due were
collected or determined to be uncollectible, written off, or waived. USACE has
also taken action to correct the recording of long-term agreements including
reconciling to the general ledgers. However, USACE needs to improve the
adequacy of source data and the reconciliation of the general ledger to the
subsidiary records.
Of the 120 receivables sampled, USACE districts did not provide adequate source
documentation for 10 receivables. Without adequate documentation, we were
unable to determine if the receivables were recorded properly. This could impact
the results of hture audits that will not be limited to judgmental sampling. For
example, a significant amount of current Accounts Receivable relate to District of
Columbia Public Schools, which are reported by the USACE Baltimore district.
The district continues to have difficulty providing adequate source documentation
and a typical District of Columbia Public Schools receivable will have 10 to 50
separate lines of support. As of September 30,2004, the current Accounts
Receivables line was valued at $235.4 million and the District of Columbia Public
Schools accounted for $62.1 million (26 percent). The sample included one
District of Columbia Public Schools receivable valued at $5.4 million and the
district could not provide support for $0.4 million (7 percent).
The reconciliation of the September 30,2004, trial balance to the subsidiary
records identified numerous variances. USACE personnel at the district required
a month to provide explanations, and this delayed the selection of the judgmental
sample. USACE recognized the need to provide timely information and has since
developed procedures to perform a reconciliation of the general ledger and
subsidiary records prior to submitting the universe of Accounts Receivable for
audit.
Land. USACE did not implement corrective actions for deficiencies involving
land costs originating in COEMIS, land costs originating in CEFMS, and
classification of reservoir costs. Of the 191 land records reviewed (97 COEMIS
records and 94 CEFMS records) with a book value of $2.0 billion, we determined
that USACE had not completed corrective actions for 75 records valued at
$482.8 million. In addition, one USACE district did not properly record
$2.9 million of reservoir costs as Land. A break out of the deficiencies is
provided in Table 4 and explained in the subsequent paragraphs.


                                Table 4. Land Deficiencies
                                                        No.             Value
 Tme of Land Deficiency                              Sample Items   (in millions)
 COEMIS Land Costs                                       52            $480.3
 CEFMS Land Costs                                        23                2.5
 Misclassified Reservoir cost;                           -0                2.9
  Totals                                                 75            $485.7
 * These costs were not part of the review sample.


A sample of 97 COEMIS land costs, valued at $2.0 billion, contained material and
systemic deficiencies with supporting documentation, including data call
spreadsheets. The corrective action required district personnel to separately
identify the total land tract costs and total administrative costs for each property
identification code and to identi@ the respective administrative cost components
for each land asset. In addition, the corrective action required each district to
prepare COEMIS to CEFMS conversion packages to provide alternative support
documentation for COEMIS land cost. The conversion packages were to contain
attestation statements signed by relevant district personnel, COEMIS to CEFMS
conversion spreadsheets, and underlying corroborative documentation, to include
COEMIS and Real Estate Management Information System printouts and USACE
district Real Estate Division and Resource Management documents. Alternative
supporting documentation for 52 items valued at $480.3 million had one or more
of the following exceptions: amounts were unsupported; variances existed
between recorded values and underlying corroborative documents; administrative
cost components were inaccurately identified; and, data call spreadsheets
contained miscellaneous variances. For example, one USACE district did not
attest to COEMIS land costs for 18 of 19 items sampled. The costs were reported
during a one-year period from the time the original attestation statements were
signed until they were entered into CEFMS.
A sample of 94 land costs originating in CEFMS, valued at $5.4 million,
contained deficiencies with supporting documentation. The corrective action
required district personnel to maintain complete supporting documentation for all
CEFMS land costs in accordance with DoD policy. Land costs for 23 items
valued at $2.5 million were unsupported or had variances between the costs
recorded in CEFMS and supporting documentation. For example, one USACE
district improperly completed the data call spreadsheet, which precluded the
testing of CEFMS land cost activity. The spreadsheet contained numerous
duplicate disposal entries in the column indicating activity after the conversion
from COEMIS to CEFMS. Also, CEFMS land cost activity was erroneously
posted in the spreadsheet as being COEMIS land cost activity. Thus, we treated
all 15 sample items involving CEFMS land cost activity as being in error.
One USACE district acknowledged that it did not reclassify reservoir costs
totaling $2.9 million from Buildings, Structures, and Facilities to Land as required
by USACE Information Paper Number 10. The district indicated that it had
overlooked the corrective action, but that it would make the necessary
reclassifications of the affected accounts.
Buildings, Structures, and Facilities. USACE did not implement corrective
actions for Buildings, Structures, and Facilities line item deficiencies involving
useful lives, support for asset values, placed-in-service dates, asset classification
(including bank stabilization), physical existence, and capital lease recording. Of
the 120 CEFMS property records sampled with a book value of $176.8 million,
USACE had not completed corrective actions for 79 records valued at $105.9
million. Each of the 79 records contained one or more of the deficiencies outlined
in the following paragraphs. Considering that some items contained multiple
deficiencies there were a total of 148 deficiencies as shown in Table 5.

            Table 5. Buildings, Structures, and Facilities Deficiencies
               Type of Deficiency                        Total Deficiencies
 Useful Life                                                     48
 Support for Asset Values                                        33
 Placed-in-Service Date                                          26
 Classification (Including Bank Stabilization)                   20
 Physical Existence                                               14
 Capital Lease Recording                                        7
  Total                                                         148



Proper usefill life values were not assigned in accordance with DoD and USACE
policy. A total of 48 usefill life deficiencies were identified. The corrective
action required district personnel to review each assigned useful life value to


                                      7
ensure they do not exceed the maximum useful life allowable. Assets that were
not unique to USACE, Civil Works, were reviewed to determine if the useful life
complied with DoD policy. Assets that were unique to USACE, Civil Works,
were reviewed to determine if the useful life complied with USACE policy. For
example, one USACE district had not taken action to adjust useful life estimates.
We found that all of their assets were assigned a 30-year useful life and were fully
depreciated. However, the district had USACE-unique assets, such as dams, that
should have been assigned a longer useful life and should not have been fully
depreciated.
Documentation was not readily available to support the costs of assets. A total of
33 valuation support deficiencies were identified. The corrective action required
district personnel to ensure that every asset had a supporting documentation file to
include documentation for all integral costs from acquisition to disposal. We
identified assets lacking third party supporting documentation for post-conversion
assets and assets lacking documentation for some disposals.
Assets were not placed in service in a timely manner and placed-in-service dates
did not match supporting documentation. A total of 26 placed-in-service date
deficiencies were identified. The corrective action required district personnel to
review and validate the accuracy of the placed-in-service date to an approved
work order completion report and to ensure that the CEFMS placed-in-service
date reconciled with the Real Estate Management Information System. For
unrecorded assets identified during inventory or observation (referred to as "found
on works" assets), district personnel must post the estimated placed-in-service
date or the date the asset was found. At one USACE district, three assets found
on works were not supported by the COEMIS to CEFMS conversion spreadsheet,
third party documentation, or an engineering estimate.
Assets were not properly classified in 20 instances. The corrective action required
district personnel to identify and reclassify assets that should be land, stewardship,
heritage, equipment, or expense. We identified assets that should have been
buildings instead of structures, an asset that should have been equipment, and
assets that should have been expensed. One district reclassified heritage assets
only if they were eligible for the National Register, rather than using the criteria
outlined in the Federal Accounting Standards Advisory Board's Statement of
Federal Financial Accounting Standards Number 8. The same district erroneously
classified moving boat docks as real property instead of personal property. The
misclassified costs also included costs associated with bank stabilization that were
not fully identified and removed. The corrective action required district personnel
to determine whether the projects involve bank stabilization work. If a project
involved bank stabilization, the asset had to be retired and disposed of in CEFMS.
For example, one district had started to identify and remove bank stabilization
costs fiom CEFMS but had not completed the corrective actions. We were unable
to quantify the bank stabilization costs in service because the district pooled many
individual asset costs into each property record and sufficient documentation was
not on file to identify the bank stabilization costs.

Assets failed the physical existence testing because they were disposed, no longer
in service, or impaired (not operating at full capability) and CEFMS records were
not properly adjusted. A total of 14 existence deficiencies were identified. The
corrective action required district personnel to process approved disposal
transactions, adjust assets to reflect current value based on current conditions,
conduct inventories, and reconcile property records to the physical assets. At one
USACE district, we could not trace individual assets to records in CEFMS.
Buildings and structures under non-Federal lease to local and State governments
were not properly recorded. A total of seven capital lease recording deficiencies
were identified. The corrective action required district personnel to review all
leases and determine if the lease period exceeded 75 percent of the economic life
of the buildings or structure. Furthermore, the USACE policy required districts to
determine if the assets qualify as operating lease because the lease period begins
in the last 25 percent of an asset's economic life. Assets under lease without a
receivable were required to be transferred out and included in the lease as
donations to the lessee. We identified assets at USACE districts that were under
lease and should have been transferred out and assets under lease that were pooled
with other assets within the same property records. Lease documentation at the
districts had not been updated to include wording on transferring existing
buildings and structures to the lessee for the period of the lease.
A systematic weakness was also identified involving adjustments to useful lives in
CEFMS. Specifically, CEFMS does not always spread depreciation accurately
across the life of structures, which affects the book value, accumulated
depreciation, and ultimately, the balance of the Buildings, Structures, and
Facilities line item. A CEFMS depreciation variance report identifies anomalies
in the straight line depreciation calculation book value and the CEFMS recorded
book value. Personnel at one USACE district used the depreciation variance
report to identify the amount of adjustment needed after changing useful lives.
Other visited districts had not made the necessary adjustments. This issue is being
addressed with USACE as part of a separate audit project.
CIP. USACE did not implement corrective actions for CIP deficiencies, valued at
$1.7 billion, involving the timely transfer of completed assets, the capitalization of
expense-type events, non-Federal cost share projects, prior CIP errors, negative
CIP, and other variances. In addition, material audit issues relating to previously
identified CIP deficiencies remained unresolved. Table 6 shows the deficiencies.


                         Table 6. CIP Deficiencies
                                           No.                          Value
Type of CIP Deficiency                Sample Items                  (in millions)
Federal CIP - Completed                    44                         $ 68.1
Federal CIP - Exgense-Type Events           18                            18.1
Non-Federal C y                              0                            36.2
Prior CIP Errors                             0                           462.0
Other Completed CIP projects*                0                           305.5
Negative CIP and Other yariances*            0                            11.9
Unresolved Audit Issues                    - 0                           835.3
 Totals                                     62                        $1,737.1
 *   These were not part of the review sample.
Of 120 Federal CIP assets sampled, valued at $181.5 million, USACE had not
completed corrective actions for 62 items, valued at $86.2 million. The
deficiencies involved the untimely transfer of completed projects and
capitalization of expense-type events. A break out of the deficiencies follows.
           The uncorrected deficiencies included 44 items, valued at
           $68.1 million, involving completed assets that had not been transferred
           out of CIP in a timely manner. The USACE CIP information paper
           requires that costs for completed assets should be transferred out of
           CIP and placed in service in a timely manner (30 days after
           completion). At one USACE district, 12 of the sample items reviewed
           were found to be in error because they consisted of assets that had been
           completed between FYs 1998 and 2004 and should have been
           transferred out of CIP.
           The deficiencies also included 18 items, valued at $18.1 million,
           involving expense-type events that should not have been capitalized as
           CIP. At one USACE district, three items consisted of costs for studies
           that did not result in a capital asset and were erroneously recorded as
           CIP.
The CIP universe also contained $815.6 million in other errors consisting of non-
Federal cost share CIP (CIP identified by a non-Federal cost share control number
in CEFMS), assets specifically identified as errors during prior reviews,
completed CIP projects, and abnormal balances.
           Of $164.4 million non-Federal cost share CIP reviewed, $36.2 million
           was found to be in error. At one USACE district, the entire
           $2 1.4 million CIP value related to four cost-share projects that
           involved work that would not be USACE-owned upon completion.
           The USACE CIP information paper requires that costs involving non-
           US ACE-owned assets be expensed.
           CIP totaling $462 million consisted of assets that were specifically
           identified as errors during prior CIP audits and remained uncorrected.
           At one sampled USACE district, CIP assets, valued at $305.5 million,
           related to two major projects that had been completed and did not
           represent valid CIP. A DoD OIG audit team had previously identified
           one project as completed when they reviewed the Buildings,
           Structures, and Faci.litiesline item. Another project was included as
           part of our review of non-Federal cost share CIP. Although the related
           assets were USACE-owned, work was completed in July 2004 and
           should have been transferred out of CIP.
           CIP assets with negative balances of $9.0 million continued to exist
           and the CEFMS CIP subsidiary and general ledgers varied by
           $2.9 million.
CIP unresolved audit issues related to USACE fish and wildlife mitigation
programs and USACE Seattle district CIP were valued at $835.3 million. DoD IG
Report No. D-2005-008, "Assessment of the USACE FY 2004 Beginning
Financial Statement Balance of CIP," October 28,2004, identified material
deficiencies related to the Columbia River Fish Mitigation Program and the
Wildlife Mitigation Land. In response to our final report, USACE stated that
corrective actions would not be completed until June 30,2005. In addition,
during audit fieldwork for this review project, the USACE Seattle district
indicated that it would not have the corrective actions completed until
March 3 1,2005. Therefore, we did not include the related CIP for the two
USACE mitigation programs or the Seattle district CIP in our sample universe.
However, we did summarize the related CIP balances as of October 3 1,2004, to
show their significance in relation to the overall CIP population.

Equipment. USACE did not implement corrective actions for deficiencies
involving the lack of adequate documentation to support equipment values. We
reviewed a sample of 160 equipment assets with a book value of $15 million and
determined that USACE had not completed corrective actions for 46 records
valued at $485 thousand. For example, one USACE district could not provide
adequate documentation to support the values for 11 of the 20 equipment assets
reviewed.
Accounts Payable. USACE districts did not correct previously identified internal
control weaknesses involving Accounts Payable. The review revealed that
USACE activities continued to improperly record payables, did not properly
review aged payables, did not record payables in the proper accounting period,
and were unable to provide supporting documentation in a timely manner. Of the
142 items sampled, 37 were improperly recorded. In addition, inadequate
documentation was initially provided as support for 44 items, which resulted in
additional data requests for sufficient documentation. A break out of the
deficiencies is provided in Table 7.

                   Table 7. Accounts Payable Deficiencies
                 T w e of Deficiency                   Total Deficiencies
 Improperly Recorded Month-End Payables                        24
 Invalid Aged Payables                                         11
 Payables Recorded in the Wrong Accounting Period             - 2
  Total                                                        37


USACE activities were not properly recording payables. Of 100 month-end
payables sampled, 24 were found to be improperly recorded. These errors were
due to payables being recorded before goods and services were received, payables
being recorded twice, and lack of supporting documentation. For one sampled
payable, funding was limited during continuing resolutions at the beginning of the
fiscal year. As a result, an accrual up to the limit of finding was recorded, instead
of the total amount of the accrual based on contractual obligations.
In addition, errors in the way CEFMS processed unfunded liabilities caused them
to be overstated. We requested that USACE provide a list of all unfunded
   liabilities for contracts with the continuing contracts clause recorded as of the end
   of November 2004. USACE was unable to provide an accurate list because a
   CEFMS programming error was identified while working the data request.
   USACE personnel self-identified a CEFMS programming error which resulted in
   the footnote for unfunded payables to be grossly overstated on both the FY 2004
   and first quarter FY 2005 financial statements. USACE personnel indicated that
   immediate corrective action was being taken and that scripts were written to
   correct the general ledger balances on all sites and the associated reconciliation
   programs were modified. USACE personnel stated that, because of the errors, a
   list of the transactions would not provide any usable information.
    USACE activities were not properly reviewing aged payables. A separate sample
    of 26 aged payables (over 90 days old) was reviewed and 11 payables were found
    to be invalid. These errors were due to payables being entered twice, personnel
    not being adequately trained, miscommunication between USACE activities, and
    personnel not correcting data in CEFMS. One sampled aged payable was for
    flood control maintenance and the payable was deemed to be valid during the
    quarterly review in August 2004. However, our review revealed that the bill was
    paid to the contractor on July 25, 1997, and that it was not a valid payable. We
    concluded that USACE had not performed proper research during the quarterly
    review.
    USACE activities continued to record payables in the wrong accounting period.
    A separate sample of 16 payables recorded in the first 15 days of the
    November 2004 accounting period was reviewed and two items were found in
    error. These errors were caused by personnel not recording the payables on the
    date the goods or services were received. One sampled payable was for
    engineering services provided through October 16,2004. The contractor's
    invoice was dated on October 16,2004, and was received on October 28,2004.
    USACE personnel did not establish an accrual in October even though they had
    signed off that the job was completed. The cost of the completed services should
    have been accrued in October.
    USACE activities also continued to provide inadequate supporting
    documentation. Of the initial sample of 100 month-end payables, 56 payables
    were at districts where the review was conducted by data call. For 44 of the 56
    items, additional documentation had to be requested in order to adequately
    confirm the payables. The original support consisted of CEFMS reports, which
    did not provide adequate evidence of the receipt and acceptance of goods and
    services.


Financial Statement Compilation
     USACE improved the financial statement compilation process during FY 2004,
     but significant deficiencies continue to exist related to unsupported journal
     vouchers (JVs), and undocumented differences in trial balance data. In addition,
     USACE had not corrected the deficiencies with the CEFMS general ledger
     correlations.
     Unsupported JVs. Unsupported JV adjustments decreased fiom $16.2 billion in
     FY 2002 to $2.3 billion at the end of FY 2004. USACE created JVs to correct
     account balances, reverse prior adjustments, and ensure that data reconciled
     between financial statements. We reviewed 111 DDRS-AFS JVs valued at
     $30.2 billion and determined that 20 JVs valued at $2.3 billion were not
     supported. In addition, 18 JVs valued at $7.6 billion were input erroneously, but
     were corrected with subsequent JVs. The DDRS-AFS JVs continued to be
     unsupported due to forced elimination entries, illogical adjustments, and
     inadequate documentation. For example, a JV valued at $20.7 million was
     created to record an adjustment to current year purchases. The JV did not provide
     adequate documentation to explain the calculation and rationale for the
     adjustment. In addition, USACE personnel identified 15 non-DDRS-AFS
     crosswalk adjustments-each valued at more than $10 million-that were
     reviewed. We found 4 of the 15 adjustments to be unsupported.
     Undocumented Differences. Undocumented differences between trial balance
     data transferred fiom CEEMIS to DDRS-AFS decreased fiom $3.1 billion (net) in
     FY 2003 to $295.4 million (net) at the end of FY 2004. USACE personnel
     developed CEEMIS for the purpose of consolidating and preparing USACE-wide
     accounting data and reports. The DDRS-AFS is a DoD system used to prepare the
     financial statements for all DoD reporting entities. The trial balance produced by
     CEEMIS is manually entered into a crosswalk spreadsheet that is used to populate
     the DDRS-AFS import sheets. USACE personnel were unable to provide
     adequate supporting documentation for the undocumented differences between the
     CEEMIS trial balance and the data submitted to DDRS-AFS.
     CEFMS General Ledger Correlations. CEFMS general ledger correlations
     were not updated to correct deficiencies in the Revolving Fund, Trust Funds, and
     Borrowing Authority. USACE general ledger correlations are accounting entries
     that automatically debit and credit corresponding CEFMS general ledger and U.S.
     Government Standard General Ledger accounts. Federal agencies are required to
     map U.S. Government Standard General Ledger information to the financial
     statements. The U.S. Government Standard General Ledger, released annually in
     the Department of Treasury Financial Manual, provides technical guidance to
     standardize Federal agency reporting. The USACE Finance Center has provided
     detailed descriptions of the necessary Revolving Fund correlations to Huntsville
     to facilitate the coding changes. The Revolving Fund correlation deficiencies are
     expected to be corrected by October 2005. The recoding of the Revolving Fund
     correlations has delayed the correction of the Trust Fund and Borrowing Authority
     deficiencies.


Validation of Corrective Actions
     USACE did not establish a comprehensive corrective action program to ensure
     that the instructions provided in its information papers were fully and consistently
     executed at all USACE activities. USACE issued a series of information papers
     containing corrective actions to remediate the previously identified deficiencies
     with selective Balance Sheet items, and most of the information papers required
     validation of the corrective actions by the responsible USACE Internal Review
    offices. However, USACE did not establish adequate procedures for validating
    completion of the corrective actions. In addition, USACE did not establish a
    process to monitor the effectiveness and consistency of the validations at its field
    activities. During our review, we found that the responsible Internal Review
    offices did not always perform validations or performed insufficient validations.
    Some Internal Review offices were either vacant or contained only one employee,
    making it difficult to accomplish the validations in a timely manner. The overall
    results of our review showed that 309 of 853 items reviewed still contained
    deficiencies, which is a strong indicator that improvements to the validation
    process are necessary. Unless USACE improves its validation process, we have
    no reasonable assurance that the validations will ensure that USACE activities
    have effectively implemented the corrective actions to remediate the previously
    identified deficiencies.
    Of the 12 USACE information papers, 10 contained a statement that the
    responsible Internal Review office must validate the completion of the corrective
    actions. The other two information papers on Land and CEFMS general ledger
    correlations and accounting adjustments did not contain a statement requiring
    validation. USACE Headquarters did not provide any guidance on how to
    accomplish the validations so there were no standardized procedures for
    validating corrective actions to remediate the deficiencies. Validations were not
    performed at some of the districts. At the districts where the validations were
    performed, there was inconsistency in the scope and methodology for the
    validations.
    We performed an analysis of the validation process for the largest Balance Sheet
    line item, Buildings, Structures, and Facilities. Personnel at the responsible
    Internal Review ofices were interviewed at each of the six districts visited to
    determined the methodology used to perform the validation and to obtain the
    results of the validation. At three districts, validations were not performed
    because corrective actions were still being implemented at the time of our visit.
    At the other three districts, validations were performed and reports issued stating
    that the corrective actions were completed. However, we found problems with
    these reports. At one district, an insufficient validation was performed because
    the Internal Review ofice made an error reviewing leased property. At another
    district, the validation did not identi@ any discrepancies. However, that finding
    was not supported by the results of our subsequent review. At the remaining
    district, the validation consisted of a limited inventory check and did not
    determine whether all corrective actions required by the respective information
    paper had been implemented. Overall, our sample results for the Buildings,
    Structures, and Facilities line item showed that 79 of 120 items reviewed had
    deficiencies.


Conclusion
    USACE implemented numerous corrective actions to remediate previously
    identified deficiencies with selected USACE, Civil Works, Balance Sheet line
    items and with the financial statement compilation process. However, the results
    of our review show that 309 of 853 items reviewed (more than one out of every
    three) still had deficiencies. In addition, significant dollar errors were identified
    in the General PP&E line and with the financial statement compilation process.
    The 12 USACE information papers address the significant deficiencies with the
    Balance Sheet reporting and financial statement compilation processes and were a
    good initial step in the corrective action plan. However, USACE did not ensure
    that the corrective actions were hlly and consistently executed at its field
    activities. Proper validation by the responsible Internal Review offices would
    help ensure that the corrective actions are properly implemented. In addition,
    USACE Headquarters should monitor the validation process to ensure that it is
    performed in a sufficient and consistent manner at all USACE activities.


Recommendation and Management Response
    We recommend that the Commander, U.S. Army Corps of Engineers,
    establish a comprehensive corrective action program to ensure that the
    instructions provided in the information papers are fully and consistently
    executed at all U.S. Army Corps of Engineers activities. The program should
    include guidance for validation of corrective actions. In addition, the
    program should include a methodology for U.S. Army Corps of Engineers
    Headquarters to monitor the Civil Works Balance Sheet reporting and
    financial statement compilation processes to ensure continued accuracy.
    Management Comment. USACE concurred and stated that it has issued a "Get
    Well Plan" with detail steps to achieve a clean audit opinion on the USACE, Civil
    Works, FY 2006 Balance Sheet.
Appendix A. Scope and Methodology
   The review was performed to determine whether USACE had implemented
   corrective actions to remediate previously identified deficiencies related to
   selected Balance Sheet items. The review was requested by USACE.
   We performed the review at USACE headquarters and field activities from
   November 2004 through June 2005 in accordance with generally accepted
   government auditing standards. The review was accomplished using a
   combination of preliminary analytical testing, site visits, and data calls. We
   conducted tests at USACE activities and selected transactions for testing the
   corrective actions for which USACE asserted full implementation. The DoD OIG
   and USACE agreed that the use of judgmental sampling for the selection of
   USACE districts and transactions testing was an appropriate testing methodology
   for this review engagement. We used professional auditor judgment to assess the
   significance of the number and dollar value of exceptions identified for each line
   item in relation to the total number and dollar value of items sampled.
   Our scope was limited to the review procedures set forth in an official engagement
   memorandum signed by the DoD OIG Assistant Inspector General for Defense
   Financial Auditing Service and the USACE Chief of Staff (see Appendix F). We
   did not review the Fund Balance with Treasury line item because a DoD OIG final
   report was issued in December 2004. The USACE management control program
   was not reviewed. The audit teams each included in their review a minimum of
   six judgmentally selected sites. For each balance sheet line, the combined dollar
   value of the sites selected for review represented at least 3 percent of the total line
   item population. In addition, the audit teams generally sampled a minimum of
   120 items from each Balance Sheet line item. Some line items received more
   coverage than others based on the professional judgment of the team performing
   the review. The audit teams considered the results of prior audits, date of last site
   visit, status of prior deficiencies, and availability and composition of universe data
   in determining the amount of coverage to provide for each line item. A
   combination of nonstatistical judgmental and simple random sampling techniques
   was used to select the sample items for review. Details are provided in the
   following paragraphs describing the sampling methodology used for each line
   item. See Appendix G for a detailed list of USACE sites visited during this
   review.
   Accounts Receivable. The September 30,2004, Accounts Receivable universe
   was used for sampling purposes. The universe could not be drawn from
   October 3 1,2004, because the data is only archived on a quarterly basis. Three
   separate universe files consisting of long-term, current, and work-in-progress
   comprised the Accounts Receivable balance at September 30,2004. Six USACE
   districts were selected to visit and test for implementation of corrective actions.
   All six districts had transactions in each of the three categories of Accounts
   Receivable: long-term, current, and work-in-process. Collectively the six districts
   reported $1.4 billion for accounts receivable, which represented
Appendix A. Scope and Methodology (Cont.)
   67 percent of the $2.1 billion Accounts Receivable universe provided for review.
   Each district had 20 receivables reviewed that consisted of eight long-term, eight
   current, and four work-in-process receivables. Four receivables from each of the
   six districts were judgmentally selected to be tested with at least one receivable
   from each of the three categories, and then 16 receivables were randomly selected,
   using a simple random sampling methodology provided by DoD OIG Quantitative
   Methods Division. In total, 120 sample items were reviewed with a value of
   $837.3 million. Analytical procedures were performed to evaluate the aged, debt
   collection, and uncollectible accounts using the monthly aged receivables report.
   Analytical procedures were also performed to review the CEFMS long term
   agreements module by evaluating journal vouchers and reconciling to the
   Accounts Receivable trial balance on September 30,2004.
   Land. The September 30,2003, Land universe was used for sampling purposes
   instead of the October 3 1,2004, universe because of CEFMS access issues and
   because it was the cutoff date for the data call spreadsheets prepared by USACE
   districts to comply with Information Paper No. 11 and used by us to select our
   sample of CEFMS land cost values. The FY 2004 year-end balance for Land
   assets was not materially different from the FY 2003 year-end balance. Six
   USACE districts were selected to visit and test for implementation of corrective
   actions. Collectively, the six districts reported $2.9 billion of Land, which
   represented 36 percent of the $8.1 billion land universe provided for review.
   From the six districts, we selected and reviewed sample values for 97 COEMIS
   land cost items with a value of $2.0 billion and sample values for 94 CEFMS land
   cost items with a value of $5.4 million. In total, 191 sample items were reviewed
   with a value of $2.0 billion. A combination of nonstatistical judgmental and
   simple random sampling techniques was used to select the sample items for
   review.
    Buildings, Structures, and Facilities. The October 3 1, 2004, Buildings,
    Structures, and Facilities universe was used for sampling purposes. Six USACE
    districts were selected to visit and test for implementation of corrective actions.
    Collectively, the six districts reported $4.3 billion (book value) of Buildings,
    Structures, and Facilities, which represented 28 percent of the total $15.1 billion
    universe provided for review. A sample of 20 assets from each of the six districts
    was selected to be tested for implementation of corrective actions. The total book
    value for the 120 sample items was $176.8 million. Four assets from each of the
    six districts were judgmentally selected to be tested, then the remainder of the
    assets at each of the six districts comprised the universe from which an additional
    16 assets were randomly selected, using a simple random sampling methodology
    provided by DoD OIG Quantitative Methods Division.
    CIP. The October 3 1, 2004, CIP universe was used for sampling purposes for all
    sites except the USACE Portland district. The December 3 1,2004, CIP universe
    was used to select a sample at Portland because corrective actions were still taking
    place on October 3 1,2004. Six USACE districts were selected to visit and test for
    implementation of corrective actions. Collectively, the six districts reported
    $885.5 million of CIP, which represented 23 percent of the total $3.9 billion CIP
Appendix A. Scope and Methodology (Cont.)
   universe provided for review. Separate sample populations were created for cost
   share projects and direct Federal projects based on data element descriptions
   provided by USACE Headquarters. Cost shared projects were identified by a non-
   Federal "cost share control number" in CEFMS. In our prior review, we found
   that CIP assets identified by a non-Federal cost share control number were
   generally transferred to another agency upon completion and not placed in service
   as USACE-owned PP&E. Therefore, we performed a separate analysis on these
   assets for purposes of this review because of the high likelihood of error.
   A sample of 20 Federal CIP assets (individual fund account numbers containing
   Federal CIP costs) from each of the six districts was selected to be tested for
   implementation of corrective actions. The total value for the 120 sample items
   was $18 1.5 million. Overall, our methodology to select the 20 items at each site
   involved judgmental sampling to allow for us to cover the fund accounts with the
   largest CIP value and to cover as many unique projects as possible. Additionally,
   we excluded fiom our sample any fund accounts reviewed in our prior audits. We
   followed up on any fund accounts that were considered as errors in our prior
   reviews outside our audit sample of 120 items.
   We also reviewed the material cost share CIP at four sites already selected for a
   site visit as part of the review of Federal CIP assets. The total cost share CIP
   value at these four sites was $1 10.2 million. Additionally, seven districts were
   audited by data call because they reported material non-Federal cost share CIP
   values. The total cost share CIP value at these seven sites was $56.1 million. In
   total, $166.3 million of non-Federal cost share CIP was reviewed.
   Equipment. The October 3 1,2004, equipment universe was used for sampling
   purposes. Eight USACE districts were selected to visit and test for
   implementation of corrective actions. Collectively, the eight districts reported
   $276.2 million (book value) of Equipment, which represented 43 percent of the
   total $647 million equipment universe provided for review. A sample of
   20 equipment assets from each of the eight districts was selected to be tested for
    implementation of corrective actions. The total book value for the 160 sample
   items was $15 million. Four assets from each of the eight districts were
   judgrnentally selected to be tested, then the remainder of the assets at each of the
   eight districts comprised the universe fiom which an additional 16 assets were
   randomly selected, using a simple random sampling methodology provided by
   OIG, DoD, Quantitative Methods Division.
   Accounts Payable. The November 30,2004, Accounts Payable universe was
   used for sampling purposes. The universe could not be drawn from
   October 3 1,2004, as this data was unavailable due to the narrow window of time
   available to retrieve data fiom the monthly databases. USACE, Civil Works,,
   reported a $506 million balance for Accounts Payable and intragovernmental
   accounts payable as of November 30,2004. Based on prior audit results, wider
   coverage of the Accounts Payable line was required compared to the other line
   items. Specifically, prior reviews revealed that each district office was treating
   payables in a different way,
Appendix A. Scope and Methodology (Cont.)
   with no central direction. Three separate judgmental samples were selected to test
   the Accounts Payable line. A total of 142 items were sampled.
   The first sample was selected to determine whether the Accounts Payable
   balances at the end of November were properly recorded, in the correct amounts,
   and were valid payables. A random sample of 100 payables, with a combined
   value of $1.9 million was selected from 42 sites. The 4.2 sites accounted for
   $422.3 million (83 percent) of the total $506 million Accounts Payable. Eight of
   those sites were judgmentally selected for visits and the remaining 34 sites were
   audited using a data call methodology.
   The second sample was selected at the eight sites visited to test the validity of
   aged Accounts Payable that were more than 90 days old. A judgmental sample of
   26 payables over 90 days old with a value of $3.5 million was selected for review.
   The third sample was selected for cutoff testing at the eight sites visited to
   determine whether transactions that occurred in the first 15 days of November
   were properly allocated to the November accounting month. A judgmental
   sample of two transactions at each of the eight sites was selected from the
   population of November transactions falling in the first 15 days of the month. A
   total of 16 payables valued at $4.5 million were selected for review.
   Financial Statement Compilation. The September 30,2004, USACE, Civil
   Works,, Year-End Financial Statement data was used to review the compilation
   process. We reviewed three types of journal vouchers: DDRS-AFS adjustments,
   non-DDRS crosswalk adjustments, and DDRS trial balance change log
   adjustments. For DDRS-AFS adjustments, USACE has eight appropriation
   groupings, or adjusted trial balances, for general ledger trial balance reporting.
   We examined 109 DDRS-AFS JVs valued at or above $10 million. We also
   reviewed the two highest dollar value adjustments in the appropriation grouping
   not represented in the 109 adjustments. The 1 1 1 DDRS-AFS JVs totaled
   $30.2 billion and represented 99.4 percent of the total dollar value of the
   DDRS-AFS adjustments. For the non-DDRS crosswalk adjustments, USACE
   identified 15 adjustments of more than $10 million that were reviewed. The
   DDRS trial balance change log contained 37 lines of adjustments valued at
   $2.4 billion that were reviewed.
   We also examined the compilation of the Year-End FY 2004 USACE Civil
   Works Financial Statements to determine whether any undocumented differences
   occurred during the transfer of the Civil Works data from CEEMIS into
   DDRS-AFS. Specifically, we traced values from the CEEMIS trial balance, plus
   any documented adjustments, to the final FY 2004 USACE, Civil Works,,
   Financial Statements contained in DDRS-AFS.
   Use of Computer-Processed Data. Although we relied on the data from
   CEFMS, we did not evaluate the general and application controls during this
   review. We used CEFMS to obtain our universes for each of the selected balance
Appendix A. Scope and Methodology (Cont.)
   sheet line items and financial statement compilation area that we reviewed for
   sampling purposes. We performed various tests to determine the accuracy and
   reliability of the data. We required originating source data to support the selected
   balance sheet line item values in CEFMS. GAO and U.S. Army Audit Agency
   audits concluded that the information in CEFMS could not be relied upon because
   USACE did not have adequate internal controls and, therefore, we did not rely on
   those controls during this review. However, not evaluating CEFMS general and
   application controls did not affect the results of our review.
   Use of Technical Assistance. The OIG, DoD, Quantitative Methods Division
   provided assistance in selecting random samples of transactions to achieve
   representation without making any projections.
   GAO High-Risk Area. GAO has identified several high-risk areas in DoD. This
   report provides coverage of the Financial Management high-risk area.
Appendix B. Prior Coverage
   During the last five years, GAO, DoD OIG, and the U.S. Army Audit Agency
   have issued numerous reports discussing USACE, Civil Works,, balance sheet
   line items. Unrestricted GAO reports can be accessed over the Internet at
   http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
   http://www.dodig.osd.mil/auditlreports. U.S. Army Audit Agency reports are
   restricted to military domains and to GAO.


GAO
   GAO Report No. GAO-02-589, "Information Security," June 10,2002


DOD IG
   DoD IG Report No. D-2005-05 1, "Independent Examination of the Land Assets at
   the U.S. Army Corps of Engineers, Civil Works," April 6,2005
   DoD IG Report No. D-2005-046, "Independent Examination of the Rights to U.S.
   Army Corps of Engineers Buildings and Other Structures," March 25,2005
   DoD IG Report No. D-2005-035, "Existence of U.S. Army Corps of Engineers
   Buildings and Other Structures," February 15,2005
   DoD IG Report No. D-2005-026, "Reliability of U.S. Army Corps of Engineers,
   Civil Works, Fund Balance With Treasury and Unexpended Appropriations,"
   December 28,2004
   DoD IG Report No. D-2005-016, "Independent Auditor's Report on the U.S.
   Army Corps of Engineers, Civil Works, Fiscal Year 04 Principal Financial
   Statements," November 8,2004
   DoD IG Report No. D-2005-008 "Assessment of the U.S. Army Corps of
   Engineers, Civil Works, FY 2004 Beginning Financial Statement Balance of
   Construction-in-Progress," October 28,2004
   DoD IG Report No. D-2004-107, "U.S. Army Corps of Engineers Financial
   Information imported into the Defense Department Reporting System - Audited
   Financial Statements," August 5,2004
   DoD IG Report No. D-2004-092, "Corps of Engineers Equipment Reporting on
   Financial Statements for FY 2003," June 22,2004
   DoD IG Report No. D-2004-063, "Controls Over U.S. Army Corps of Engineers
   Buildings and Other Structures," March 26,2004
Appendix B. Prior Coverage (Cont.)
    DoD IG Report No. D-2004-059, "Assets Depreciation Reported on the U.S.
    Army Corps of Engineers FY 2002 Financial Statements," March 16,2004
    DoD IG Report No. D-2004-044, "Subsidiary Ledgers at the U.S. Army Corps of
    Engineers," January 16,2004
    DoD IG Report No. D-2004-032, "Independent Auditor's Report on the U.S.
    Army Corps of Engineers, Civil Works, Fiscal Year 03 Principal Financial
    Statements," December 3,2003
    DoD IG Report No. D-2004-023, "Corps of Engineers Financial Management
    System Accounting Processes," November 18,2003
    DoD IG Report No. D-2004-017, "Reliability of Construction-in-Progress in the
    U.S. Army Corps of Engineers, Civil Works, Financial Statements,"
    November 7,2003
    DoD IG Report No. D-2003- 123, "Corps of Engineers Equipment Reporting on
    Financial Statements for FY 2002," August 20,2003
    DoD IG Report No. D-2001-067, "Inspector General, DoD, Oversight of the
    Army Audit Agency Audit of the FY 2000 U.S. Army Corps of Engineers, Civil
    Works Program, Financial Statements," February 28,2001
    DoD IG Report No. D-2000-093, "Inspector General, DoD, Oversight of the
    Army Audit Agency Audit of the FY 1999 U.S. Army Corps of Engineers, Civil
    Works Program, Financial Statements," February 28,2000
    DoD IG Report No. D-2000-087, "Inspector General, DoD, Oversight of the
    Army Audit Agency Audit of the Army's General Fund Principal Financial
    Statements for Fiscal Year 1999," February 14,2000


Army Audit Agency
    Audit Report No. A-2002-041 1-FFC, "Audit of The U.S. Army Corps of
    Engineers, Civil Works Accounts Receivable-Jacksonville District,"
    September 4,2002
    Audit Report No. A-2002-04 12-FFC, "Audit of The U.S. Army Corps of
    Engineers, Civil Works Accounts Receivable-Huntington District,"
    September 4,2002
    Audit Report No. A-2002-0413-FFC, "Audit of The U.S. Army Corps of
    Engineers, Civil Works Accounts Receivable-Little Rock District,"
    September 4,2002
Appendix B. Prior Coverage (Cont.)
   Audit Report No. A-2002-0414-FFC, "Audit of The U.S. Army Corps of
   Engineers, Civil Works Accounts Receivable-Omaha District,"
   September 4,2002
   Audit Report No. A-2002-0415-FFC, "Audit of The U.S. Army Corps of
   Engineers, Civil Works Accounts Receivable-Philadelphia District,"
   September 4,2002
   Audit Report No. A-2002-0416-FFC, "Audit of The U.S. Army Corps of
   Engineers, Civil Works Accounts Receivable-Sacramento District,"
   September 4,2002
   Audit Report No. A-2002-0417-FFC, "Audit of The U.S. Army Corps of
   Engineers, Civil Works Accounts Receivable-Savannah District,"
   September 4,2002
   Audit Report No. A-2002-0549-FFC, "Audit of The U.S. Army Corps of
   Engineers, Civil Works Accounts Receivable-Detroit District," September 4, 2002
   Audit Report No. A-2002-0347-FFC, "U.S. Army Corps of Engineers FY 2001
   Financial Statements, Civil Works (Accounts Payable--Credit Card Purchases),"
   August 23,2002
   Audit Report No. A-2002-0348-FFC, "U.S. Army Corps of Engineers FY 01
   Financial Statements, Civil Works (Compilation And Adjustments),"
   August 23,2002
   Audit Report No. A-2002-0345, "U.S. Army Corps of Engineers FY 01 Financial
   Statements, Civil Works (Accounts Payable--Accruals)," August 23,2002
   Audit Report No. A-2002-0344-FFC, "U.S. Army Corps of Engineers FY 0 1
   Financial Statements, Civil Works (Accounts Payable--Progress Payments),"
   August 23,2002
   Audit Report No. AA-02-142, "Fiscal Year 2001 Financial Statements, U.S. Army
   Corps of Engineers, Civil Works," February 8,2002
   Audit Report No. AA-01-359, "Audit of the U.S. Corps of Engineers FY 00
   Financial Statements, Civil Works (Property, Plant, and Equipment Valuation),"
   June 28,2001
   Audit Report No. AA-01-346, "Audit of The U.S. Army Corps of Engineers
   FY 00 Financial Statements Civil Works (Construction In Progress),"
   June 28,2001
   Audit Report No. AA-01-187, "Fiscal Year 2000 Financial Statements U.S. Army
   Corps of Engineers, Civil Works," February 14,2001
Appendix C. Prior Deficiencies
       From November 2002 through April 2005, DoD IG issued numerous audit reports
       and memorandums that identified deficiencies related to the USACE, Civil
       Works,, balance sheet and financial statement compilation process. In addition,
       we issued two audit reports that followed up on USACE general and application
       control deficiencies reported by GAO and the U.S. Army Audit Agency. This
       appendix consists of official deficiencies we deem as impediments to the financial
       statement compilation process and to the audit of the balance sheet.


Accounts Receivable
    DoD IG issued a memorandum that identified impediments to an audit of accounts
    receivable for information to aid in planning for auditable financial statements.
                  USACE showed differences between CEFMS general ledger amounts
                  and subsidiary ledger amounts because long-term agreements could not
                  be entered in CEFMS.
                  USACE districts were not performing reconciliations to ensure
                  receivables agree with general ledger amounts and did not enter the
                  current portion of the long-term receivables as short-term receivables.
                  USACE did not use mandatory summary accounts for accounts and
                  interest receivable.
                  USACE did not take timely action to address write-offs for delinquent
                  accounts.


Land
    DoD IG issued a memorandum and a report related to USACE land that contained
    recommendations for the following deficiencies.
                 USACE Land line item included unsupported administrative costs and
                 administrative costs at the property identification level that had no
                 associated land purchase costs, donated land tracts that were not
                 assigned a fair market value or were assigned an unsupported fair
                 market value, and amounts recorded for land tracts were not supported
                 or did not agree with supporting documentation.
                 Costs associated with disposed land tracts and reservoirs may have
                 been misstated.
Appendix C. Prior Deficiencies (Cont.)

Buildings, Structures, and Facilities
     DoD IG issued three reports related to USACE buildings, structures, and facilities.
                Controls over buildings and other structures were weak because
                established USACE guidance was not consistently implemented,
                properly instructed to employees, and strictly enforced.
                Weaknesses included inadequate real property inventory procedures,
                inconsistencies in capturing real property assets, and improper
                segregation of duties.
                Placed-in-service and retirement dates were often unsupported or
                improperly established in CEFMS.
                Proper usehl lives were not always established in accordance with
                Engineer Regulation 37-2-10.
                Acquisition costs for structures were frequently not properly captured
                or supported by sufficient third party documents.




     DoD IG issued two reports related to USACE C P .
                USACE could not support pre-CEFMS project costs.
                USACE capitalized expense-type items as C P .
                USACE did not transfer costs for completed construction projects out
                of CIP in the proper accounting period.
                USACE could not properly reconcile CIP costs maintained in CEFMS
                to source data.
                USACE misreported costs relating to non-Federal cost share projects
                as C P .
                USACE did not properly record fish mitigation studies and bank
                stabilization projects.

                USACE should correct negative CIP balances and imbalances between
                C P general ledgers and cost records.
Appendix C. Prior Deficiencies (Cont.)

Equipment
    DoD OIG issued two reports related to USACE equipment that stated USACE
    could not provide all documentation needed to support the value of equipment
    assets because USACE did not properly implement their improved document
    retention policy.


Accounts Payable
    DoD OIG issued a memorandum that identifies internal control weaknesses that
    could have a material effect on the USACE financial statements.
              Accounts payable were not recorded as of the date that goods and
              services were received, regardless of whether budgetary resources were
              available.
              Instead, accounts payable were recorded as of the date recorded in
              CEFMS. Further, CEFMS is programmed to reject valid accounts
              payable for which related obligations have not been recorded.
              When goods and services were received, but related invoices had not
              been received, estimates for the amounts owed were not recorded as
              accounts payable for small dollar transactions.
              Small dollar amount payables were not estimated and recorded as
              accounts payable, although they existed.
              USACE did not record actual accounts payable for invoices received
              around the end of the fiscal year.
              Accounts payable resulting from work performed by contractors under
              Engineers Federal Acquisition Regulation Supplement clauses
              52.232-5001 and 52.232-5002 were not recorded when incurred, but
              rather when the applicable contract lines were funded.
Appendix C. Prior Deficiencies (Cont.)

Financial Statement Compilation
    DoD OIG issued two reports related to the USACE financial statement
    compilation process.
              CEFMS does not process and summarize all accounting transactions in
              accordance with the USSGL.
              USACE does not have a process in place to ensure that the CEFMS
              general ledger correlations were promptly updated or that deficiencies
              were corrected.
              USACE does not have effective controls to ensure accounting
              information transferred from CEEMIS to DDRS AFS was reliable.
              Finance Center personnel made undocumented adjustments because
              DoD policy and Federal system requirements for making accounting
              adjustments were not adequately implemented.
Appendix D. Memorandum of Agreement




                        MEMORANDUM OF ACREUhfENT
       SCPPORT FOR RECORDED BOOK COST OF GENERAL PROPERTY. PLANT.
                           Ah7) EQUIPMENT ASSETS
                1J.S. ARUY CORPS OF ENGIWF.ERS. CIVIL WORKS

     Purposr. To tlevelop allmate mctliods to allmate and supprt the ayois~tioncosts md
     capitalized improvmimts for rml and personal property assets with nniaining useful
     llvcr and ndministrative cosls associated with land. In addition. lo develop procedures
     for ensunng t h a ~rllc constructiowin-progrcss costs that will hc assipcd to h e a s x ~ in
                                                                                               s
     the future arc supported.

     Auditimg G u i d r ~ c c .The Amcricall Instilute of Catificd Public Accountanls S t a t n c n ~
     of Audiling Standard (SAS) Number 3 I. "Evidential Maclcr," requites that suficicnt,
     cnrnpct~nlevitlmtial mattw be obtained through inspect~on.observation, inquiries, anJ
     confinnations to afford a rcvonablc basis for an opinion rcprdtng ~ h financial
                                                                               c
     st;ltcmcn!s untlsr audit. The auditor's uvrk cnnsists ol'ohainlng and evaluating
     cv~dentialmartcr concerning the ajstrt~onsin financial statcmcnts. Assenions art
     rcprcsenl;llims by manrgcmcnt. Management assertions tcpnliny the valu;\tion of
     assc:s iuldrtn whclher thc assuls have been includcd in the finaclal slatcments a1
     approprlalc amounts.

     Accounting Guidance. S t a t m ~ ~of                Accounting S~andardsISFFAS)
                                       n tFedcr~lFl~~ancial
     No.6. " A c c o ~ ~ n for
                           t ~ nPropert!..
                                 ~         Plant and Equiprncnk" dcfines general propeny. plant.
     and quipment (PPkE) as any PPkE uscd in providing yoods or smiccs. Mqor
     calcgorim of PP&E gcncnlly i~~clude       lard. l a ~ drigh1.s. buildiligs. other structures.
     cannmction-in-pmb~css.capit.11 leases, and quipmcnt. The xcoLmtlrig standard
     rcqulres that all gener;ll PPkE bc recorded at c4xt. Costs shcru!d tncludc all costs
     incurrcd to bring thc PP&E to a form and location suitable for its inlcrnlcd u x . Fnr
     general PP&E in exislcncc bcforeOctobcr 1, 1931 (the ciKcclirc dale olStFAS No. 6).
     thc ~landi~rd    allows for thc use of cost estirnatcs, if the historical cost inlormation
     n x a s a r y to comply with thc standard had not bccn 11ihntaineJ. 111 accordalrcc wiih l l ~
     standard. rslima~csshall hc based 011.

             cost of similar assets nt he limc of acc1uisirion or
             cuncllt cost of similar ~ l s c t discounted
                                               s          for inflation sincc the tintc oilhe
             acquisition.

     DoD Rcgulalion 7000.14-R.thc '.l)oD Financial Managcnicnt Regulation." volume 4.
     chapler 6. "Property. Plant and Equiyenl," August 2000. slatcs 1haI the dollar -;lluc
     assiycd to an vrnrct shall be suppodcd by appropriate docurncnlation. Docurnenlalion
     (original docurncnts an&or hard md clcctronic copies oforigil~aldocumentation) should
Appendix D. Memorandum of Agreement
(Cont.)


     he mntli!;lit~cdin a readily u\vtlahlc location. during the alylicahle retention period. ~ L I
     prm~itt l ~ vvalidatiot~of information pcnaininy to tlle asset. such as tllc acquisitioncost,
     the acquisition chtc, and cost ofimprovcmcnts. Supponing Jocumcntstion may itlcludc,
     but not be limited to. pt~rchasei~ivoiccs.salcs and procurcrnclit contracts. Enginccr
     Form 3013. '-Wnrk Ordcr/C:onlplction Report," co~rrtructioncunrracls, work ordcrs, arlJ
     olhcr such docirmmtation gencratcd indcpcnderltly of the entity in posscsslon of the
     property. A comhbnation of lhex documents is oncn required to ralrdatc inronnat\on
     pcnaining to lhc asset. S i t p p n i n ~documentation far land 111ayincludc. but not be
     limited to, o n e n to seil, purchases, deeds. irnd condetnnation filcs.

     Record Retention Rquircmena. DoD Regulation 7 0 . 14-R. "DoD Financial
     Management Regulation." volume I. chapter 9, "Financial Records Retention."
     August 2000. states that all financial records. both p a p a m d elcctrontc. documenting thc
     acquir~tionof DoD PP&E shall be mintaincd for at least the minimum period m i l d
     in the applicable General Records Schrdulc (GRS) issued hy the National Archives a d
     Records Administration (NARA).

             NARA Requiremeals lor Real Property Records. 7he NARA GUS No. 3.
     item I rquims that records, other than abstract or certificates of title. relating to real
     proprty acquircd a t l a December 31.1920. be rctaincd until 10 yean ancr unconditional
     sale or relase of tlic govanmcnt of conditions, restriclions. mortgages. or Mhcr liens.
     Records rclatecl to real propmy acquired prior to January 1. 1921. are not mvercd by Ihe
     GKS and must be schdulcd by suhrnislon of sSF 115 to NARA.

             NARA Hequlremcnls for P r n o n r l Property Records. NARA GRS No. 3.
     item 3 rcquires that the routine procnremcnt files (irxluding contract. rcceipt, inspection.
     and payment) retatcd to tiansaclions (including constructron contrstlrj other than real
     property that cxcced 52.000 be rciaincd until 6 yean and 3 tnonthr ancr f111rlpaymclv
     Files pcrlaininy to transactions, including construction conmcls, at or below $2.000
     should hc: rclailrcd until 3 ycan after final payment.

     Army Caidrnce. T h e Army record Maltion guidance is inconsistent. The Lkputy
     Chief of Ston: Anny (3-4. rccopizing the problem with conflicting guidance, revised
     Army Regulation 710-2. "Supply Policy Below thc National Lcvcl," F c b r u . 25,201W.
     to rcquin: t h d t wurce docurncnr~tionfor capital assets be kept by the propertv book offre
     for the life of thc Jssn. All o l k r assel docunlcntation is to be kcpt fcr 6 years. Enginccr
     Rrgulati~n37-1-29. "Fimncial Management ofCapital Invcslments," Novcmkr 30.
     2002, requires that all capitalized wsct files be maintilined for 10 ycan a R n the disposal
     of the asset. fiowcvcr. Enpincer Forn~3013 and supporting docunicntation are tu be
     maintotncd and disposed in accordance with Army Regulation 25-400-2, "The Army
     Records lnfonnation Management System (AKIMS)." l h e Llircctor. U.S. Anny Rcronls
     Mylagmcnl a ~ ~~ I da s s ~ f i c a t i oAgmcy
                                               n    develops ARIMS polley and proecdura ud
     administers the ARL!lS pmgn~nl(or the Deputy Chicf of Staff. h y G- I. The
     U.S.Anny Records Management and Declassification Agency's retention and disposal
     policy for properly management r c f m to Army Re~ulation710-2. Chapter 16 (dnlt).
Appendix D. Memorandum of Agreement
(Cont.)


     E11g111cer Kcgulat~on405-1 -12. "Hcal Esta~c:     ilandhuc~lr."states tI1i11 all cap~tirli/cdabwt
     filcs will h!: rc1;rincd TOI. h ycors and 3 nronths aft- tht dlsposal orthc asset.

     Hcrord Retention Agreement. For rcal propcny placed in scrvicc ancr FY 11r)8. the
     11.5.Anny Corps of Engineers ([ISACE) agrees to marnuin ;)I1 11xdocumcniaiio~~
     (origi~ialdocurnc~itsandior hard and electronic copies of original documrnti~tion)in a
     readily ovailSlc locat~onfor thc life o f the a s s & i n accordance with NAR.4 rccord
     reter~tio~l
               rcquirc~ncl~ts. For adrn~nis~rativc cask associated with Lilnd acquired aner
     FY 1998. USACE agrees rt~atthe distncn mu* retaln docummtat~a~~           supporting those
     costs In accordance w ~ t hSFFAS No. 6, the DoD Finamla1Managerncnl Regulation. ar~d
     NARA quircn~cnts.For personal propcny acquired aflcr Scptcmhcr 30. 2002. USACE
     agrees tl~atthc districts must lullow SFFAS No. b. the DoD F~nincialM~ugcrncrlt
     Regulation, and thc NARA rcquircmcnls for personal propc.rly records along w11hthcir
     o\vn implementin$policy.


     PAR'I' I. WEAL PROPEH'TY

     Background. ll~cUSACE ISCS several types of buildings md structures to pcrfonn its
     misston. sl~chas tlarns. hnclgn. reservoirs. a d locks. A s o r Septemhcr 30.2003.
     USACE rcponed that the acqu~sirionvalue (book cost) of its gcneral PP&E totaled
     $44.3 b~lllon.'Ihc rrajor assci classcs wcre buildings and othcr stnutures, 531.1 billion;
     l a d . S8.I b~llion,consl~ction-~n-pro~yns,    $3 8 billion; and cqulpmcrit. S 1.2 h ~ l l ~ o n .
     I h c DoD Financial Managcmcnl Regulilliol~      rquircs that thc owncr n~ainlarr~  sr~ppcrlting
     dncurncntation for rsscis in a read~lyavaihblc location dunng the applicahlc rctcntion
     per~ocl.This pcnnils thc validallon of iarormalion psrlaining lu thc asbct. including
     acquisition cost, x q u l s ~ ~ i o
                                       date.
                                         n and cost of improvcn~cnts.

     The Problem. The luck o~documcntationto wbstantialc the book con o f a siynificanl
     poritort oTLSACE rcal yropcrty assets and thc admit~~strativc
                                                                coru osoc~atcdwith land.
     is a major audit impnlinlcnt to determiriingwhclhcr USACE. Civil Works. gc~lcralPPBE
                                                                costs was chat USACE district
     is fairly statcd. Tllc primary reason for t l ~ c~~nsupportcd
     offics did riot nr~in1a111 docurnc~~t~tion long enough bccal~seofthc contlict~ngsuidance.
     In addition. for rlrc real pmpcrty an~ountreporlcd on dlc financial smtcmcnts. USACE did
     not haw accurlue s~ibsidtrrylcdgcr infonl~ationon ~ h quantity,
                                                                c       lypc. and V ~ U Cor
     hu~idinp    and othcr structures to sllppod thosccosts

     To compcnsatc Int the lack ofsupporling docurncn~ation         and subsidiary ledger
     inlonllation. USACE issued specific guidance on how tlw districts YhwlJ rstilnale the
     acquisition cost of real properly. USACE district work groups ollocud Ihc capitr1it.d
     projccr costs, by fcaturc o f work. to c i h item in the real properly ilivcntnry using
     a\qilrblc rcal cstatc. financial, and operalions data. To \he extent possihlc. costs
     associaid with each fcaturr o f work werc O    I hc dloeatcd to the irldividuol itcrns o f rcal
     propcny tha~rclated to the reaturr. lrappropriate data wcrc no1available or ma1 estate
     costs did not r g c c with the accounting records, thc work group uas to use thc cost &la
     providcd by the finance and x c o u n t i n g o l T ~and
                                                           ~ cstirnxc the original arqu~sitionor



                                                      f
Appendix D. Memorandum of Agreement
(Cont.)


    construcrian coa: nfeacl~item of rcal prolxny Afler assi~nlngcosts of all rcal propcny
    ilcrns I n sccordancc with the accounting rccords. ihc Chainnacl of tllc Rcal Properly
    Work Group or repreral:ativcs ol'tlle district's Rcal Eltalc and Rcwurrc hl3nayemc.111
    off~ccswere rcsponsihle far signing an attestalto11statctnent. Tllc attrstation indicated
    tllat costs assigned to the individual itcnis wcrc bas4 on actual rcal estate rccords. whcre
    available, anii.!or an rstinrated cost b a d on p m j ~ xcostlgcl~cral
                                                             t           lrrdgcr rccordr in the
    Corps of Englnecrs hIaagenicnt information System (COEMIS). Cosl ~ l i m a t e s
    assipled to the inkvdual items wcrc based on thc proScsriona1judgnlcnt ofthe work
    group using the wtal custs reflected incach katurc uf work.

     IJSACE developed procedures to ensure that lhc Ialgers remained in balancc and that the
     inventory data wcrc cntcrcd into the Real Estatc Managemolt lnlorm~tion       S?,stem
     (REMIS). At that time. USACE urcd REM1S u the subsidiary ledger. Beginning In
     Deccmhcr 1993. USACE b a n converting financial accounting rccords from COEMIS
     l o the C o p o f Engineers Flnwcial Management Systcm (CEFhlS). USACE district
     olficcs curnplad thc cotirmion of gcncral I d p r and &bilcd subsidiary infomiation
     from C'OEM1.5 to CEFMS at d~ffercn~    times. The lasl district ofT~ccconvened to CEFMS
     in March 1W8.Unl~ke      COEMIS. CEFMS accounted financially ior inliv~dualrcal
     propcrty assets by pmpeny identification code. At the tilnc of convcrsion. LJSACE uscd
     the infomtation from thc REMlS and lhc COEMIYCEFMS convmion sprcadsl~cnsto
     establish values for individual property identification c d c s and populate the gencral
     Icdgm in CEFMS.

     Agrtcmtnt. 1\11 panics acknowledge that IIIC      dollar value assigncd to an asset wi:l he
     suppor~Jby nppmpriatc documentation SFFAS No. 6 and thc DoD Financial
     hlanagcment Rcgulilion allow thc use of alicmatc rnetllods to cstimatc and support 111~
     acquisition cosls for real prupcny assas with reli~aininguscful livcs for trmsactions
     occurring befnrc Oclohcr 1, 1998. This Mcrnorandum of A@ecl~lent          documents an
     agmmcnt bdwtcn thc Oficc of lhc lnqcctor (jcncral o f the Dcpad~ncnlolDcfcnsc
     (OIG DoDI, thc principal auditor fw USACE, and USACE. in coord~~~ation           with Ihc
     Cicneral Accounting OOicc and Ihe OlTice of the Undcr Sccrrhry o f Defcnu
     (Comptmllcr)iChicf Financial Oficcr. Thc ugcment is an altcrnrtc method to c s t i m c
     ~ r c support
           l       the acquisition costs for real property with remaining rrscful lives.
     adminislrat~vccosls associated r l t h land. and profcdurcs for cnburin~tllal the
     constwtlon. ~n-pragresccosts that wtll be as~gncdto i ~ ~ s cIItIstho futurc arc ~.uppor(d.

     I!SAC'E agrees that SI\S Nun~hcr31. "Evidential Mattcr," requlres tllat tllc aditor
     consider ttlc naturc, compaencc, and sllfficiency oCcvidcnti;tl mlter presetltcd by
     niJnsgement. Evidential mstta supporting the linaneial scatemcnls consists of
     uldcrlylng accountingdau and corroborating information avrlablc to thc auditor. Fur
     cvidcntial matta to be cotnpaellt, i t must he borh valid and rclcwant. For evidential
     inotter to hc sumcicnt and compctcnt. thc auli~ormusl obtain information t!at rams s
     reasonablebasls for an opinion.

     USACE also agrccs to d~sclorcin the notcs to 11sCivil W o r k financial statenicnts that
     asr-ts pul in scmicc prior to CEFMS did not have sdquatc cxtcn~alsupport thus
Appendix D. Memorandum of Agreement
(Cont.)


     al~crnatcilyrccd UWII p r c x d ~ l l e wcre
                                             s    usd. USACE w ~ linclutlc l   tkc to:al 11u111hcrul'
     asset (to ilrcludc. cilbt) ~III
                                  i n scrvicc bcforc d c p l o y n ~ c of
                                                                       ~ ~CEKMS.
                                                                          t

    B m i k l i n ~and Othcr Structures. The O l G Don ayrccs that the use o f
    COtMlSlCEFMS cnnvcrsion sprcaJsl~mscould bc used to suppon !he I~ookcos: ofthe
    real propercy (huildlnys a!d other smcturcs) i n existence bcfore VSACE c o n r c ~ ~ Ilte
                                                                                             cd
    srsc~to CEFMS. Consequently. tlrc baselinc date for each asscr will vary dcpeding
    upon whcn i t was convcncd to CEFMS. Fach spreadsheet musl bc accompanied by an
    a~tcs:ationrcillancnl from USACE Kcal Enalc and Rciraurcc Xtanagcmet~tpurson:lcl I h t
    indicates lbill costs assi~ncdto the individual itcms were bascd on ac!u;ll rcrl cstalc
    records. uphereavailablc, andior an cstimatcd coa based on prajcct coscigcnerdl l c d g r
    records i n (he COEMIS. I n lieu oforiginal supponlngdocument~tionindicating the
    ocquisilion dale. the co~~vcrsion  sprcadshect or othcr documentation supponing the
    spradshect could he used to support the placed-in-servicc d a a a t a b l i s h d in CEhlS.
    USACE based ~ h convcnion
                         c           proccduraon the prcmise that the occounling records In
    COEMIS rcflccted the actual cost o l t h c projects and would cven~uallyKNC SI i l i basis
                                                                                             ~
    for assigning the cost ofthe p m j a t t o the individual property idcnlificaliott codes
    Consequently. when thc USACE complacs it work on ohtait~lngconvcrsion spreadsheets
    with attestation sratmatls for e x h project. the O l G DoD p13N 10 parbnn other
    analytical procedures tlut would be used lo dcterminc thc rcasonable~~css       of thc COEMIS
    cost ~nformat~on    aswiatcd \\it11 convend projects and thc costs w i g n a l to high~Joll3:-
    value assels.

    For tllusc pmjccls rur whlch a convcrsiurl ~ p r e d d s his~ available,
                                                                      t            bill an atlcstaliun
                ,,
    sutcrncnt no1 p r o \ ~ d ~todthe auditors. USACE will ohtan a d provide a wnlten
    slatcmcnt honl Rcal Esolc and Rcsllurcc ManapcmeM pcnonncl i n tllc rcsponsihl+.
    dtstrict oficcs. These distr~ctpersonnel will attest that ~ h cons   c      assigncd to 1111:
    individual items were b i ~ c on     d ~ c t u arcrl
                                                    l cstete records. where n~~a~lablc.     arvilor an
    estrn~atcdcost bascd on pmjcct cosuge~~cnl            Infgcr rcrords in the COEhtlS. US:tCE will
    also rumish an PIICEW~~OII slaltmenl m to the re~onabltness0 1 t h ~           plactd-in-service datc
    ~rthe conversion sprcadshcct or other doculnmlation suppaning the spreadsheel docs not
    indicate .an x q u ~ s i t i o date.
                                   r~    If ~ h original
                                                c        COEMIS/CEFMS spreadJlcels arc MI
    available. USACE will rc-credtc Ihc sprc&hec.lr usi:y ltlc sdnlc inrormal~onand
    methodology uscd IU crcalc Ihe originah. USACE will tlrcr~annotalc on lhc sprcdshce~s
    -'non.original' atwl attcst to thc information a d the rncthodol~~gy         u.wd tu rc-creak thctlr.
    Ifi t 1s ilr~possiblclo rc-c~eutea ncw spmdshcct, t h n USACE   ~         a g r w to ohlain appraisals
    an&or engincmng cstlrnatcs & missing convcrsion sprEiulshccts. A writtcll ste1cntcnt
    describing thc estimaliny niahodolog). should accompany thc ~ p r a i r a l sm&or cslim;~lcs
    and be sllcsted lo by responsible Real Estate and Resaurce ~tnnogemcnlpmonncl.
    USACE will clearly idcntify thr med~aWbsrisuscd lo cornputc thc estimated cosl f ~ b r
    ally asxt for whiclr Lhc conversion spreadsheet Is missing. Irmy cosls rannol bc
    supported with docurnenration. USACE agrccs lo alhcr r d u c c ~ h book         c     cost o f thc
    buikling or other structure b y the m o u n t o f the unsupponcd costs or track thc
    unsuppond amounts by property identification code. Whcn USACE con~plelesthe tsork
    rclatcd to the unsuppoflcd book cost, the OIC DoD agrees to consider the risk awctated
    with relying on ~ h unsupponcd
                            c                amounts in auditing thc finaaclirl eatclnents.



                                                      3
Appendix Do Memorandum of Agreement
(Cont.)


     (ISACE agrccs that ;icquisitiott cosls i n i l i ~ l l yrccordcd i n C'EFMS. cnpiulizcd
     Ilnprorenturlts made to cxistlng aucts sincc the co~~vcrsiott          sprc~tlshcct\vns prcpard. and
     rturcases in acqutsition cc)cts A-om tho= recorded on the COEMISICEFMS convcrsion
     sprcadshccls will bc supponed by indepcr~dcntsource documents as prescribd in
     Engineer Rcgulat:on 4115-I-1 2. chapta 16. In instanca where the rcquir~d
     d~runicntationcallno1 been ohlaind. USACE agrees lo obtain appraisals snkor
     cng:neering cstimatcs as detailed in the DoD FMR, volurl~c4. chapter 6. with r wriltcn
     attcstattolt. I f any costs remain that c a ~ obe    t supp~rtcdwith docum~nra~inn        or by m
                                      ~ ~ i g USACE will eidrcr reduce the book cos~of the building
     appraisal or e l ~ g i ~ r c e rcstirnate,
     or other slruclurc hy the anrount o f thc urrcupponcclcosts or track t11c unsupported
     mounls hy propcriy idcn~ificatroncode.

     Ueca~lxthe 01G DoD w i l l review only thc COEM ISKEFMS convcrsion sprcdshects
     for 43 m p l d projects. USACE rgrccs to dcternline Ule zv~ilabilityo f
     C0EMIS:CEFMS conversion spreadshrcb and written attestation slalcrnalls for thc
     eSSds in thc projects no1 wmpkd. USACE agrees lo rcconcilc dificrenccs betwccn what
     was recorded i n COEMIS at the lime of convasion and wha: was dislr~butcdto thc
     individual properly identification codes on the convcrsion sprcadshects for entry into
     CEFMS. For cl~arrgrsnl& to existing ssscrs s i m the dcvclopmcnr of the conversion
     shee.1 and new ~ S S C ~placed
                               S    in service since the convcnwn, USACE ~grresto ensure that
     suficient sourcc doconlentationexists i n files maintained by the respective distrlc~sto
     subsra~ctiatethe book cost rccordcd tn CEFMS. Source ducunicnta~ion.sucl~as a11
     ajrpraisal, or a ariltctt at~cstatiotrstatement should suppon llie acqutsition cost o f
     rebulving ful~drcal propctfy assets. USACE agrccs to mainrain all the docurnatalion
     (original documcnls iud;or hard and electronic copics oof origilui docunlen~atio~~)     in a
     reildily availahlc location. for the lifc of thc assets.

     Conrlruclion-in-Progrns. USACE alpecs to establish a d implcrncnt procdures I)y
     Novanhcr 15.200.). that rcqulrc that COEMIS costs hat are 2ssl)ciatcd with asbets still
     In cons~ruct~or~-in-proyress   be suppofled bcbrr aswirtcd assets arc pkxcd in senwe. I n
     tllc ncw prucedurcs. thc Engineer Form 3013 for c u h a ~ n s r c n d asscl will itlrlicatc ~ h c
     dollnr valuc o f ~11capitdl~cd
                           r          costs orig~nalingin COEMIS for rchich suffictclil source
                            S exist. The Enginwr Form 3013 will also identify tllc corls that
     docurnenliltion ~ L W not
     originald it1 CEFMS that arc supported by original dacumcntation. USACE will ubtain
                             statarlcnt from responsible USACE dis~nctpersonnel atrcstiny \hat
     and provide a u ~ i u c n
     thc casts assigned to tile individual pmprny idcn~ification   codcs uxrc based on ac\u:~l
     costs, whore rvailal>lc. and/or an cjtir)~~lcd cost based on project costigcncral lcdgsr
     records tn COEMIS. LISACE will anach the wnltcn aalcmcnl with Ihc supporting
     docurncntolio~i,such as rhe CEFMS cost &tail ledger as o f lhc dale of tile convcrsion. l o
     the El~gincerForm 3013. 'fhc written statement. supporling documentation. or Ihe
     Enginccr Form 301 3 w ~ ldescribe
                                  l        the trpco of goods or scrvicn tlvat arc asmia~ed     ~ i l h
     ttiec;rpitalixcd costs for whlch sufiicient source docurner~kition does nut 0111cnr.i~cxist.
     I f any costs cannot k supported usinp &is n~cthodology.\he book cosl o f l k burldir~g       or
     othcr structrrrc ueillbe rcduccd by d u mount of thc unsupporlcdcosts.
Appendix D. Memorandum of Agreement
(Cont.)


     Administrative Casts Asrmiatcd With Land. Rcportablr land cosls u c conlposcd o f
     the cost to ucquirc land trxts a11dall costs r.cseswy to bring a tract o f l i l d to a lorn1
     suitable for its intcndcd use. This includes llic d m ~ n i s t n l ~ costs.
                                                                           vc     Adniic~~stntivecosts
     assocri~tcdwith land on ihe 'I- 2(U2Civil Works blancc Sheet reprcscnt appruxinlrucly
     70 pcrcrnt of ~ h SE.1
                         u billion worded valuc for lad. A s w ~ t hothcr rcal pmlxny.
     suppurling docu~~~ct~tation  IS not ava~hhlcfor niost o f these adm~nistra~ive    cons. To
     idcntify the adnlinislralivc cost componcnt. USACE agrccs to scparatcly identify tola)
     land trilct costs ;udtotal administrative costs for each pr~pertyidentiGc:~t~on     code pcr
     dlsuict by Llay 2004.

     Fro111r i c h o f lhc districts, USACE will rcquest the FYs I994 to 1998 convcrslon data,
     the rsscriatcd COE.MISICJiFMS conversion spn;rdshcets, and Ihc si~nedaltalation
     stakn~cnufor all projccu. l'hc attestation statcm~ntsindicate that costs assigned to the
     individual items wcrc based on actual real estntc records. where av;rilahlc. and/or an
     estimated cost h a s d on project cosVge-neral ledger records i n COEMIS. For missing
     FYs 1994 to 1998 conversion sprcadshects or altestation statements. ljSACE will
     recreate the spreadslwts usin$ the same ,nlbrmation md methodology uscd to crole the
     original spreadsheets. USAL'EW~II then a n n o t i on Ac spreadsliras~"nnn-original"and
     Jlle51 to tllc ir~formal~on   and the mNhoJology used to rc-mate thcm. IiUSACE cannot
     reco~~struct  thc conrcrsio~lsprcrd4wcts.   UGCE      will write off the rccorded slnounts or
     provide valid cstininrs. For administrative costs associated wrh l a d rqllzrcd after its
     co~~vcrsion   to CEFMS.IJSACE agrees lhat the districts must retain docurncntation
     supprtirlg thox costs in accordance wiU1 SFFAS No. 6. thc IloD Finwcinl Manapmcnt
     Reguhtlnn. and NAIL4 requircnlalls.

     The O l t i UoD r p c s to accept thc conversion .~rc;rdrhcctswith s~gncdattesl;~lior~
     statcnlcnts as sltc~nst~vc docur~lentationthat will appruxirnatc
                                                          -.          xtual cnsts for h c prc-
     CEFMS unsuppncd dn~inistriltivecosts of land. The bascline dore w1I1vary forcacll
     item depending u p n whcn i t was m v c r t c d to CEFMS. Baause the COEOIIS or
     convcnio~~   data is altcrnalivc dvc~~mcntation.  USACE ayrca l o sclcct ajudbmental
     salnple ofthc available convasion syreadshcels from a rnl~umumo l o ~ i cproject each at
     fivc Powcr Makctiny Adnlinistralion dislricts and fivc ntul-l'wer Marketing
     Adtnlnistration distr~cts LlSACE cnglnccrs w i l l then vahdatc the accuracy of tile
     conversion data uscd to cstlrnatc project cost on thc sclccted pmjccts. \ISACE will
     provide the a~ginccr-validatcdcst~lwtesto the 1G Don auditors USACE also ; l v c s l o
     disclox: all unsuplmrlcd administrative costs (thosc costs not s~~pportcd by ~ctualreal
     catatc rcxords or cslimrtcs) i n thc tinancia1 statement notcs.

     USACE agrees to rcconcilc d ~ k e n e c hclwcen
                                              s         what was recorded in COEMlS at the
     timc ol'conversion
     ~~~~ . -   ~        and what was distributed to the individual itcnis on the convcnion
     sprcdshccts f a cnrry into CEFMS. For changcs made to existing itetm sincc the
     dcvcloprncnt o f lhr conversion sheet and new itcmr placed in service sincc the
     conversion, USACE agrees to ensure that suffiacnt source documentation cxists in files
     maintained by thc rcspectjvc districts to rubstvlntiatc thc zdministnrt~vecosts rccorded in
     CEFMS. USACE agrccs to mainlain all Ihc documcnl~tion(original docunicnts andlor
Appendix Do Memorandum of Agreement
(Cont.)


     hacl :~nde:ectror,~ccopies n l or~glnalducurncatalio~ljin a rcadily available locatiut~,For
     Ihc Iifc cl'thc ilcms.


     PART 11. PEWSONAI, PROPERTY

     Clackground. USACE uscs sevcnl diffcrcnt typcs nrcquipmcni asscts to pcrfarnl i ~ s
     mission such as fu~kl~li+.    Imcks. cranes. barges. and boats. The equipment portion of
     PP%E galerally includes assets with an xqutsition value oiS25.000 or nlorc. It dots not
     include. knd. buildings a d sructurcs, and construction-in-progress. I r e 11c1book value
     ofquipmc~rttri the USACE principal statenrents in FY 2Wi2 was $6650 R millinn Tlrc
     DoD Financial Man~gcrncntRegulation requircs h a t supporting documenta!ion for the
     asscts bc rnainbined hy the owner in a readily available location during thc applicable
     rctcntion p c r i d . Tllls pernjhs the validation of infomauon perlaining to thc ass*.
     including acquisitio~rcost. xquisition datc, and cost of ilnprovanmts

     Problem. USACEdiJ not mainrain adcquatc d o c u ~ ~ n t a t i otonsupprl all of thc values
     rrcmlcd In CEfhlS far a s~g~~ificant       numbcr of items of quiprnc~itreviewed. This
     occurred because USACE had not devclopcd thc controls nacssary to ensure pcrsonncl
     adhercd to cxistiny plicics and procedures far rctaini~igdcxumentrtion and valuiny
     asSC& in Ule ahsencc of historical dda. Tlrc valuation problcm r a u l ~ c din the audit
     c o ~ ~ c l u s rthat
                       l ~ l USACE could trot adcqualcly suppon about W7.5millionof 1%
     S6SO.R 11111liundiscloxd on ~ h FY    c 2002 financial statcmer:s as rhc raluc of quip~ucnr.

     Agreement. For pcrsunal propcrl). assels acquired as oTScptcmbcr 30.2002, USACE
     agree. when original supporllng docurnenhtion for personal pmpcny asscls IS no lurgcr
     ;~i*ailablc,
                thal drc nssct c r n ~ nccd
                                       s    10 bc dctcr~nincdand docunrcntd ustng acceptable
     mcthods orcstlrnatiliy costs. A c q t a b l c procedures for valuing users for which
     It13toricolcost dncunn'nlallon IS no longcr avatlablc ilcludc.

            approprraion u: otl~crCongscs~io~ral
                                              in foniv~tion.

        a   Plant Hc.placcmeniand l~nprovcnrentProgram doc\unc~rtation,iii\ carr bc uwd or
            adjust4 to cs~imatc.tllc vsluc of tllc s s c t s al Lhc tllirc W;LT placed ill wrvicc.

            cstirn~tcclcost b   ~ ondtl1ccod of sinrilar *sacs at the time of oriyinul
            acquisition. md

            cunmt cost ol'sirni:nr assets, discowtcd for intlation sincc tlie cimc or
            rcquisi~~oli.

     USACE agrccs to documcnt the cstimatc on thc USACE ln~crnalEquipment Va1uallo:r
     (ill Lieu ofsupporting Documcnotion) farm and have it c t n i f i d by rcspnsihle
     p c r s o ~ c l .For pcrso~lalpropcny acquired A n Scptairbcr 30.202, CISACE agrws \h811
     the distncls must rcuin documentation suppning those costs in accordance with SFFAS
     No. 6. iltc DoD Financ~rlbfsnagcment Regulation. and KARA rquircmcnts


                                                   u
     -
Appendix Do Memorandum of Agreement
(Cont.)


     1his Xlr.n~or:rnduniof Agccrncnt. onct agrced to by all panics. will rcprrscnt ~ h oficial
                                                                                          c
     hasclinc lor sirpprting thc book cost ofir~d~virtual USACE, Civil Works. general PP&E.
                                              .,
     Ttc official baclinc dales an' 1101 rollinw basclincs; thcnfore. altcrnrtivc valuation
     n~elhodologicslor rta1 and pcrsondl pmpcny wrll riot be accepted klr any trulucrions
     that ucsur akcr the asset's hueline ~cricwi.Tlic undcniancd aarec that thrs men~orandt~rn
     cxprcsscs Lwr undersla~idrngol~thc   ktrons (hat the O I G ~ O Di d USACE ngcc to lake.




     Paul . ~ramllo,CPA
               Inspeelor Gcncral. Dcfensc Fimcial Auditmg Service
     Olfice oithc lnspcctor General o f ~ h cDcpnmcnt of Dcfeax




     Director. Rcrource ~ a n a g c m e n t
     U.S. Anny Corps of Enkinccrs
Appendix E. Assertion Letter


                                    DEPARTMENT OF THE ARMY
                                    U.I. lJIYY CORPS OF EllOHEERS
                                          u 1 0 m I I W
                                      WUHINOTDH. D.C. ~ l C l O D O
                                                                               1 9 NOV   200(



     CERM-F (37)


     MEMORANDUM FOR Office of the Deputy Inspector General for Auditing of the
     Department of Defense, Assistant Inspector General, Defense Financial Auditing
     Service Directorate, 400 Army Navy Drive, Arlington, VA 22202-4704

     SUBJECT: Management Assertions RegardingCorrective Actions on the U.S. Army
     Corps of Engineers' CMI Works Balance Sheet


     1. This memorandum asserts that the U.S. Army Corps of Englneen (USACE), Civil
     Works, has completed actions to correct all deficiencies identified in the Balance Sheet
     by the Office of the Inspector General of the Department d Defense (OIG DoD), as of
     October 31,2004,except as indicated on the atteched spreadsheet.

     2. We hereby confirm, to the best of our knowledge and belief, that the following
     actions to coned the Balance Sheel as of Ocrober 31.2004, have been completed,
     except for h e weaknesses discussed in the encbsure.

         a. We have fairly presented required information in conformity with generally
     accepted accounting prlnclples.

         b. We have established and are maintaining internal controls as of October 31,
     2004 to provide reasonable assurances that USACE's internal control objectives are
     met.

          c. We have properly recorded all malerial lransactions in the accounting records
     underlying the Balance Sheet. There are no materlal events or transactions that have
     occurred subsequent to October 31,2004, that have any material etfect on our
     corrective actions.

           d. We have corrected all deficiencies related to the following Balance Sheet llne
     items: Accounts Payable; Accounts Recehable; General Property, Plant, and
     Equipment (PPE) (including Construction in Progress. Buildings and Structures, Land,
     and Equipment); and Depreciation. Also, we have corrected the m p l a t i o n process d
     the finandal statements. Our corrective actions addressed all Chief Financial Offlcer
     issues identified in the USACE informationpapers, deficiencies identilied in the OIG
     DoD audlt reports and memoranda, and the need for acceptable support for
Appendix E. Assertion Letter (Cont.)



     CERM-F
     SUBJECT: Management Asserlions Regarding Corrective Actions on the U.S. A m y
     Corps of Engineers' Civil Wolks Balance Sheel


     recorded book cost d USACE Civil Worlcs General PPBE agreed to in the June 9,20W.
     Memorandum of Agreement signed by USACE and the OIG DoD.

     FOR THE COMMANDER:




                                    Cdonel, Corps of Engineers
                                    Chiif of Staff
Appendix F. Engagement Memorandum


                                        INSPECTOR GENERAL
                                      DEPAATMEIVT OF DEFENSE
                                         400 ARMY NAW DRIVE
                                    ARLINOTDN, VIRQHIA 222W-4704

                                                                                  !JEC I 4   mfl
    MEMORANDUM FOR COMMANDER,U.S. ARMY CORPS Of ENGISEERS
    SUBJECT: Enpgemmt Mcmorrndum for the Review of the U.S. Army Corps of t n
                CIVII Works, C a o t i v e Actioru I W s t d to S~lcctalBalance Shed L i n e r
                (Pt~joctNo. D2004FE-0244)

                  In previous audits of the US. Army Corp of Engineaq Civil Works (USACE)
          the Olfice of Ihe Inrpccror G c n d o f the D e p m m l of Dcfarse (01C DoD) idartifid
          and documented ddciencin in w i n g of f i m i a l information on wme USACE
          Balance Sheet line i t a m (the dctieicwier). The purpose of this memor8ndm ir to
          edablish sn undcntandin~      of our mgasemcnt to m i e w USACE comtivc actions
          rcluivc to the dcficienas.

    Auditor's Responsibilities
              We will pcrfonn r revim to exprss a wnel~lliondm111 I S A C E usalions hat
                         v c have been compklcd lo eliminate Lhe deficiencies. A mi-
              ~ m t ~actions
              engrgcmenl will provirk r madarte level ofassumce that our conclusiaa arc
              amc4 regarding USACE rtrertionr.
              The criteria we will use include gmmlly mspkdgovcmmmt auditing S I d d s .
              incoqmating !he C d a l u d i t ud altcstuian aunduh alablidd by the
              American InstltuleorCcrtificd Public Accolmtrntr (AKPA). n imp1,nnpltedby Ihc
              GAOPCIE Fimncial Audit Murd. Ihc review will rko inclldc cntaa Nth u
              DoD r c g u k t i o ~ad licics. Office o f Muugcmmt md Budpt n g u ~ m m ~ .
              Sut-       of ~ c d m/?nmcial
                                      l        Accounting S t d d r . USACE policies nd
              pnrrduru md 0 t h rpplhblc rcouning mquirrnvcnfl idcnlificd'durin? lhe h.
              I n addition, OLU mim will include inquiries, d f l i c d proccdurq ~d l ~ y l l c d
              tnnsrctim testing We will meet with USACE ~nnllp"att~,nqcdedlo Qrracour
              proccdurrr,t m l t r o f h e micw. Md ohm iaua of inlcrat.

                        n ~wicv. we may c o w l ( with or d e p d & the io;k ~ f n t u u i a .
              ~ u r i thc
              p m f c v i o ~enginear,
                              l        Md intend uditonto obtain ~ n a b l assurance
                                                                                 c         of certain
              anmuntr am the financial statamits. T h OIG DoD will cupnisc dl w a k
              conducted hy sptciilistr md intennl aditon in-           of our d n w , ud all
              working p p n r prepared in suppoct orthe m i e w will be OIG [bDp r o m .
                                     ,   .,.
              If our rcporc on UK &iirrippamt         d i k e s deliciaria in inlem~l  canlml
              hud. illegal acts, viduiool of provisiaa of contncts or grmt y e e m a m a rkac.
              we will obuin md repon the view of rapomibk USACE offuldswnceanilytke
              findings, w n c l u m and m i o n ,u well u pluvwd cOfr&ti~c=liar.
               OIG DoD work may rault in onc or mac rFporrs qmcmmndumr i            d for
               USACE information and use. hr such,Ihc mformaaon rrported should not be ured
               by thou who hsve not agreed to hc review or nnwncd rapomibility for (hc


    ' ~ uxnion
          n        is ray dcclrdww ccc otdeclurr;m mdc (ind ~ i reac.by USACE) Uul U r bcjutdWn.i.r
      is h u d om. or cmfbma w. lhc c r i k x*md for Ihc m p p n r o L
Appendix F. Engagement Memorandum
(Cont.)


           ruficicncy of USACE corrative actions. The reports md mcmarmdums will be a
           matter ofpublic =cord md we will not limit hardismition. Specifically. wewill
           reporl on whd* USACE pcrlormed cormdvt actions ar rhe cleficicneies. The 010
           DoD w~llsukn~tthe dnfl r q m t 10 LCCommMdcr of USACE about March 30,
           2005.

    Management's ResponsSblllties
        The U.S. A n y Corps of Enginem, Civil Worts. is rcspomible for:
           providing a written assenion lmcr stating whetha the comctivc actions to previously
           identified dchciencies rclltcd to ukcled Balance Sheet line i k m s have kcn
           implemented ad whether USACE is rady lor t k 01G DoD lo begin lhclr
           wort
           ad-          a primuy md d t m u t c point ofcaur* (POC)that can be wnuctcd lo
           rc~olvcqucstionr or c a ~ a nbetween
                                              s        fhc 010 DoD auditors md USACE for mh
           r e l e a d Balsncc Sheet line im. Ihc POCs will be knowldpabte about Iheline
                         rudilal and they lhcyhould be able 16 rmkc a decision for USACE. The
           2$7hce              Sheet line item, nAccounts Payable. Accounts I c i v ? b C
           Proprry, Plant, md Equipment (to include Concimction-inRo-,               Equlpmm~
           Land, md Baibdings), Dcptwiation. and F w d B a r n with T.-               Also.
           Compilation of the Financial Slrkmcnt~will be r e v i d .
            paparingMd providing cacdin schedules and molysu of rcrounu, hving avulable
            thc rcquatcd daaunenlation within 2 drys or our requat. nlbeing available to
            antmr quesliom p o d by tlre OIG DoD a d i t rums.
            establishing and maintaining effalivc i n l d conhol o v a finmid rCPOnS.
            identifying md eatwing canpliana with lpplicable Lmand rsgulntior~.
            making all 6mc1al records and relored i n f m l i o n avrikble to OIG DoDdibnin
            a l k l y mumu.
            providing a Managemen! R w t i o n L a l a btSm lhc m i e w rcpon ir bud
            maintaining adequate audit aails and mrlrimg spem docuyUion F ~ K B -
            and accar 10primary md f d e r systems availnblc (D ha d l l ~ e Tuntl~
                                                                              ~.
            compldion of this worL will frilitatc the cunpktion of our review.
Appendix F. Engagement Memorandum
(Cont.)


    Additional Represeotation Concerning tbe Audit
                The auditors and management agrcr chat rhe auditor's use o f j u d p m t a l sampling
        for fhcsclecfion of USACE Disiricta Md trnoctiwur Tor testing is an rppropriae fcsfing
        methodology f a this review mpgancnt. The natwc o f o ~ transaction
                                                                 u            t a t s will vmy
        dcpcnding on the pvliculsr Mace Shed line item disclocure and the sprcifs nrture of
        the m m d d corrcctiw ac!ion(s).

                Each 01G DclD line item audit cam will coaduct tests at rlcctal USACE Lklriet
        Ofi~cesand select banrrtiom for testing faeach wncctcrlve action for which USACE
        managcmenr hu assated full i kncnlrtion, The ~ p r i t of   y ow m s r t i o n r t d h g
        will occur during tbc months o    ~     k2004rand Jrnwry 2005.
                For d i t i o n a l information on this request, ploue contau Mr. Richud B. Jollific
         at (703)418-1444 (jolliff@odig.admi1). Mr. Smm K. Kurlru i f (703) 325-3549
         (skurkc@bdig.osd.mi1. or Mr. H a u y Y. Adu at (703) 325-6008 (hdu@dodi&d.mil).




                                                  mUb, CPA
                                     Assidml lnrpectm Gcnenl
                                     Dcfmse Financial Auditing
                                               Scnice




         If this manorandurn. including the attxhnmt.,     pur u n d m i n g , pl-              sis
         below and mum the original wpy of lhc dgnd manorandrun.


    FOR THE COMMANDER:




       Laiiifofstrff
          U.S. Army Coqn of Enginan
Appendix G. Sites Reviewed

                                               Buildings                        Financial
                            Accounts Accounts and Other                         Statement
       USACE Activity       Payable Receivable Structures CIP Equipment Land   Compilation
  Alaska District, AK          D'
 Albuquerque District, NM     D                                          v2
 Baltimore District, MD       D         D                D       V
 Buffalo District, NY         D
   Appendix G. Sites Reviewed (Cont.)

                                                          Buildings                          Financial
                                Accounts Accounts         and Other                          Statement
     USACE Activity             Payable Receivable        Structures CIP Equipment   Land   Compilation
Portland District, OR              V                         V        V      V
Rock Island District, IL           V                                  V
Sacramento District, CA                                               D
San Francisco District, CA           D                                D
Savannah District, GA                                        V
Seattle District, WA                 D                                V      V
South Pacific Division, CA           D
St Paul District, MN                                                D
St. Louis District, MO               D                              V                 V
Tulsa District, OK                   D           D           V      D                 V
Vicksburg District, MS               D                              V       V
Walla Walla District, WA             V                              D
Washington Aqueduct
Division, DC                         D
Wilmington District, NC              D

 Total Data Calls (D)               34           6           0       9      0         0         0
 Total Site Visits (V)                8          0           6       7      8         6         1
  Total Sites Reviewed              42           6           6      16      8         6         1

 ' Sites reviewed by data call are identified by a "D."
   Sites visited are identified by a "V."
Appendix H. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptrol1er)lChief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (ProgramBudget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Civil Works)
Commander, U.S. Army Corps of Engineers
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Ofice of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
U.S. Army Corps of Engineers Comments


                                     DEPARTMENT OF THE ARMY
                                      U.J.MMYeOrarrWoWV~~
                                              441 0 ST. MI
                                       W N m m l C a D.C. zmlC~(00




     CEIR (36-2b)                                                13 August 2005


     MEMORANDUM FOR Director, Defense Flnandal AudlUng S m l ~ a Inspedor
                                                                   ,      General
     Deparbnent of Defense. 4U.l Army Navy Drive, Arlington, VA 22202

     SUWECT: Rcvlew d the U.S. Amy Corps of Enginem, Civil Work, Balance Sheet
     Reporting and Rnandsl Statement ComollaUon




     -
     (Project No. D-2004-DOOOFE-0244.000) July 13-2005


     The UUCE response to the DepRrnent of Ddense Inspcdor General (DoDIG) mport
     recornmendstionfdlom:


     We recommend U18t the Commander, U.S &my Corpn o f Cnglneen estabUsh a
     unnpmhenrlve w e d b e K t b n propram to ensun that the Inltructlons p r o v l d d
     In the I n f m m t h papam a n fully and corubttnt)r executed 8t all U.S. Anny
     Carp. of tnglnwn, U v l l W a d , a d v l t l e a The program nhould indude guidance
     lor valldatkn of c o f r e d h acttons. I n dditlon, the program should Include a
     methodology far U.S. Anny Corps of E n g l n n n Headquartom to manibor Balance
     Sheet reporting and flnanclal statement compllatkn proassen to ansum
     contlnwd accuracy.

     Cormnand Response: CONCUR
          USACE developed a 'Get Well Ran' In late March 2005. The 'Get Well Ran' details
        (I)
          the steps USACE will take to obtaln a dean audlt opinion on the USACE CkH W&
          MD6 Balance Sheet. The plan calls for all Regions to assert madlness no later than
          30 Sep 2005.



     FOR THE COMMANMR:



                                "'
                                         h"w
                                        DONALD I.RIPP
                                        Ct~lef,Audlt hecutive
                                        U.S. Army Corps d E n g i n m
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Services, prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who contributed
to the report are listed below.
Paul J. Granetto                            Jeffrey D. Marshall
Patricia A. Marsh                           Kimberly L. Misener
Richard B. Jolliffe                         Kevin B. Palmer
Byron B. Harbert                            Michael W. Pogue
Raymond D. Kidd                             Mary Reynolds
James L. Kornides                           Kevin M. Roths
Lorin T. Pfeil                              Sharon R. Roydes
Barbara A. Sauls                            Ronald L. Smith
Carmelo G. Ventimiglia                      Theresa L. Seidlinger
David F. Vincent                            Yan Shen
Henry Y. Adu                                Audrey M. Spear
Jack L. Armstrong                           Eric T. Thacker
John W. Barklage                            Mark J. Thomas
Edward A. Blair                             Todd L. Traux
Kelli M. Burkewitz                          Karen A. Ulatowski
George C. DeBlois                           Clarence Wilson
Amy J. Frontz                               Catherine Bird
Walter J. Gaich                             Erin S. Hart
John K. Issel                               Frank C. Sonsini
Delpha W. Martin
Steven K. Kurker
Shaneen J. Beamish
Matthew F. Bengs
William C. Blouvet
Adriel E. Braaksma
Walter J. Carney
Samuel Cooper
James C. Darrough
Ralph W. Dickson
John P. Frawley
Kathleen A. Furey
Joaquin Garcia
Cheri Givan
Bradley D. Grubb
Anthony C. Hans
Joshua D. Harcharik
Melissa J. Humerickhouse
Calvin Hursey
Clarence Knight
Steven L. Kohne
Scott E. Kontor
